<html>
<title> - FIFTEEN YEARS AFTER TIANANMEN: IS DEMOCRACY IN CHINA'S FUTURE?</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]





                    FIFTEEN YEARS AFTER TIANANMEN: 
                    IS DEMOCRACY IN CHINA'S FUTURE?

=======================================================================

                                HEARING

                               before the

              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                              JUNE 3, 2004

                               __________

 Printed for the use of the Congressional-Executive Commission on China


         Available via the World Wide Web: http://www.cecc.gov


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
94-258                      WASHINGTON : DC
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                    LEGISLATIVE BRANCH COMMISSIONERS

House

                                     Senate

JIM LEACH, Iowa, Chairman            CHUCK HAGEL, Nebraska, Co-Chairman
DOUG BEREUTER, Nebraska              CRAIG THOMAS, Wyoming
DAVID DREIER, California             SAM BROWNBACK, Kansas
FRANK WOLF, Virginia                 PAT ROBERTS, Kansas
JOE PITTS, Pennsylvania              GORDON SMITH, Oregon
SANDER LEVIN, Michigan               MAX BAUCUS, Montana
MARCY KAPTUR, Ohio                   CARL LEVIN, Michigan
SHERROD BROWN, Ohio                  DIANNE FEINSTEIN, California
DAVID WU, Oregon                     BYRON DORGAN, North Dakota
                                     
                     EXECUTIVE BRANCH COMMISSIONERS

                 PAULA DOBRIANSKY, Department of State
                 GRANT ALDONAS, Department of Commerce
                   LORNE CRANER, Department of State
                    JAMES KELLY, Department of State
                  STEPHEN J. LAW, Department of Labor

                      John Foarde, Staff Director

                  David Dorman, Deputy Staff Director

                                  (ii)


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

Opening statement of Hon. Chuck Hagel, a U.S. Senator from 
  Nebraska, Co-Chairman, Congressional-Executive Commission on 
  China..........................................................     1
Schriver, Randall, Deputy Assistant Secretary of State, East 
  Asian and Pacific Affairs, U.S. Department of State, 
  Washington, DC.................................................     3
Wang, Youcai, former student leader during the 1989 democracy 
  meovement, Somerville, MA......................................    16
Lu, Jinghua, former Beijing Workers Autonomous Federation leader, 
  vice president, Chinese Alliance for Democracy, New York, NY...    18
Hom, Sharon, executive director, Human Rights in China, and 
  professor of law emeritus, City University of New York School 
  of Law, New York, NY...........................................    19
Nathan, Andrew J., Ph.D., Class of 1919 Professor and chair, 
  Department of Political Science, Columbia University, New York, 
  NY.............................................................

                                APPENDIX
                          Prepared Statements

Schriver, Randall G..............................................    30
Wang, Youcai.....................................................    32
Hom, Sharon......................................................    33
Nathan, Andrew J.................................................    36

Leach, Hon. James A..............................................    37
Hagel, Hon. Chuck................................................    47
Pitts, Hon. Joseph R.............................................    48

                       Submission for the Record

China's Changing of the Guard: Authoritarian Resilience, 
  submitted by Andrew J. Nathan..................................    49

 
                    FIFTEEN YEARS AFTER TIANANMEN: 
                    IS DEMOCRACY IN CHINA'S FUTURE?

                              ----------                              


                         THURSDAY, JUNE 3, 2004

                            Congressional-Executive
                                       Commission on China,
                                                    Washington, DC.
    The hearing was convened, pursuant to notice, at 10 a.m., 
in room SD-419, Dirksen Senate Office Building, Representative 
Jim Leach (Chairman of the Commission) presiding.
    Also present: Senator Chuck Hagel, Representative Sander M. 
Levin, and Representative Joseph R. Pitts.

  OPENING STATEMENT OF HON. CHUCK HAGEL, A U.S. SENATOR FROM 
 NEBRASKA, CO-CHAIRMAN, CONGRESSIONAL-EXECUTIVE COMMISSION ON 
                             CHINA

    Senator Hagel [presiding]. Good morning. Congressman Leach 
and our House colleagues are presently voting, I think, and 
they will be here after they vote. But since we had scheduled a 
hearing at 10, we wanted to stay on course. So, Congressman 
Leach has asked me to preside until he returns. The Co-chairman 
of this Commission rarely gets any areas of responsibility, so 
I jumped at the chance, of course, to open the hearing.
    Fifteen years ago, the People's Liberation Army cleared 
Tiananmen Square of the peaceful demonstrators who had held it 
for several weeks. The shocking sounds and images of unarmed 
students and workers gunned down by Chinese troops remain vivid 
in our minds. The demonstration was crushed that awful day, but 
the optimism and possibilities represented by those fighting 
for a future democratic China were not. We meet today to 
remember their voices, and assess China's progress in meeting 
their goals.
    I am especially pleased that this Commission will hear 
today from two leaders of the 1989 democracy movement, Mr. Wang 
Youcai and Ms. Lu Jinghua. These individuals have never given 
up the struggle for their country's democratic future, and 
their insights and sacrifice will greatly inform today's 
proceedings.
    Mr. Chairman, I congratulate you for holding today's 
hearing. China today faces important choices for its political 
future. These choices will affect the lives and welfare of all 
Chinese citizens, but China's size and growing importance 
guarantee that these same choices will reverberate around the 
globe in ways that we can only dimly predict and understand 
today. China's future is also important to America's future. It 
is in our interest to work broadly and deeply with the Chinese 
Government using all the bridges and opportunities available to 
us to help shape and ensure a democratic future for China.
    China is a much-changed and much-changing place. The 
results of two decades of market reforms are visible nearly 
everywhere. The cold, gray Beijing airport where I first saw 
China on New Year's Day in 1983 has long been replaced with a 
state-of-the-art facility. The skylines of China's major cities 
have changed dramatically. These are the most prominent symbols 
of China's new wealth, but the economic reforms that generated 
these changes have also fundamentally altered the dynamics that 
will define China's future.
    The economic realities of building a modern nation while 
feeding, clothing, and employing 1.3 billion people have begun 
to drive China in directions that, I believe, some within the 
Communist Party have not wanted to go. The twin demands of 
political stability and continued economic progress have 
spurred legal reforms that someday may be the leading edge of 
constraints on the arbitrary exercise of state power. Elections 
at the village level are now commonplace in China, and limited 
experiments like these continue at other levels of government. 
Shanghai is experimenting with public legislative hearings, and 
the term ``human rights'' was recently added to China's own 
constitution.
    While these changes are important, the gap between forward-
looking economic freedoms and a backward-looking political 
system remains significant. The Communist Party continues to 
crush any person or movement it perceives as challenging its 
hold on power. But there are leaders now within China that 
comprehend the necessity for change, and understand that 
inflexibility, secretiveness, and a lack of democratic 
oversight now pose the greatest challenges to continued 
development. President Hu Jintao and Premier Wen Jiabao have 
demonstrated, albeit unevenly, that they may be two such 
leaders, but they will need to gather considerable reformist 
courage to drive continued change. Not overnight, but in ways 
that Chinese society, culture, infrastructure, and institutions 
may be prepared for, and willing to accept.
    With no voice in their own political future, the 
frustration of China's citizens is growing. The political 
scientist Murray Scot Tanner cites police figures in the 
current issue of National Interest showing the number and size 
of protests in China growing rapidly in the 1990s. It is 
extraordinary that China's ruling party came to power in a 
peasant revolution, representing the working class, but now 
faces waves of both worker and rural protests. China's citizens 
are fed up with corruption, a social and economic ill that 
China's student demonstrators both recognized and offered a 
democratic solution for in 1989.
    The United States wants to work with China to build a more 
open and participatory society. David M. Lampton wrote in the 
fall 2003 issue of National Interest that ``Americans must 
balance the impulse to treat China as it is with the foresight 
to recognize China for what it may become.'' China will not 
match the United States on every issue. Political change is 
complex and imperfect, and it will be up to the Chinese people 
to determine where their country goes and how it gets there. 
But China's leaders must take the first steps, and the United 
States must be ready to assist.
    This morning we have two panels that will offer testimony 
and opportunity for questions and answers, which we very much 
appreciate.
    On our first panel is Randy Schriver, who is the Deputy 
Assistant Secretary of State for East Asia and Pacific Affairs 
at the State Department.
    Mr. Schriver, we appreciate you being here this morning and 
look forward to your testimony. Please proceed.

STATEMENT OF RANDALL G. SCHRIVER, DEPUTY ASSISTANT SECRETARY OF 
   STATE, EAST ASIAN AND PACIFIC AFFAIRS, U.S. DEPARTMENT OF 
                     STATE, WASHINGTON, DC

    Mr. Schriver. Mr. Chairman, thank you. I appreciate the 
opportunity to appear before the Commission today on this, the 
15th 
anniversary of the Tiananmen Square crackdown.
    Mr. Chairman, I will summarize my comments, but have a 
longer statement I would like to have included in the record.
    Senator Hagel. Mr. Schriver, your full statement will be 
included in the record, as will all witnesses' statements. 
Thank you.
    Mr. Schriver. Thank you, Mr. Chairman.
    Anniversaries, of course, are a good time to look back and 
reflect, but also to look forward and examine trend lines and 
to think about our actions and what we may be able to do to 
affect the trend lines.
    The tragedy of Tiananmen which occurred 15 years ago still 
resonates today. This is a tragedy that former Ambassador Jim 
Lilley described in his recent book, ``China Hands,'' quoting a 
Chinese professor, that this was an event ``when even the 
heavens were saddened.''
    It still casts a long shadow over China today. You see it 
as the Chinese authorities exercise great scrutiny when people 
gather in groups larger than three or more in the Square.
    You see it in the heartbreak of Tiananmen mothers who are 
asking for an accounting of their children who have been 
missing since 1989, and for these efforts, get detained by the 
Chinese authorities.
    So, 15 years on, it does continue to cast a shadow and it 
is time for China to reexamine these events. It would be a 
reconsideration and an examination that is long overdue. When 
it does come, we are very confident that this will be to 
China's benefit.
    While China today, Mr. Chairman, as you noted, is vastly 
different, it is more confident, influential, and prosperous 
than it was 15 years ago, Tiananmen will not become real 
history in the sense of becoming part of the past until its 
leaders address those events with honesty and with candor.
    Former Party Secretary and Premier Zhao Ziyang famously 
observed at the time of those events that perhaps he arrived at 
Tiananmen Square in May, 1989 at a point that was ``too late'' 
to affect the outcome of those events. But it is certainly not 
too late for leaders of today, some of whom were actually with 
Zhao on that fateful day, to take steps to come to terms with 
the past and to help move China forward in a better direction.
    As President Bush said in a speech to the National 
Endowment for Democracy on 17 May, there will come a day when 
``China's leaders will discover that freedom is indivisible, 
that social and religious freedom is also essential to national 
greatness and national dignity.''
    For our part, we do continue to engage the Chinese 
leadership and the public directly on issues that were key and 
implicitly part of the foundation of the popular protests in 
Tiananmen 15 years ago.
    If I could just briefly summarize some of the things the 
administration has done in the past year alone. U.S. officials 
in Washington, China, Geneva, and elsewhere publicly and 
privately 
highlight the need for improved human rights conditions.
    We have called for the release of prisoners of conscience, 
and in recent days protested detentions of those like HIV-AIDS 
activist Hu Jia who seek to hold Chinese authorities 
accountable for their actions.
    We have engaged in a wide-ranging bilateral human rights 
with China. We were optimistic over a year ago in 2002 when we 
felt as though that dialog was starting to yield some promising 
results.
    Regrettably, the Chinese have failed to move forward with 
many of their promises from that dialog. This had a great 
impact on our decision to introduce a resolution to the U.N. 
Commission on Human Rights in Geneva this year to highlight our 
continuing concerns on human rights.
    We have a resident legal advisor in China who works to 
promote the rule of law. We work in China with NGO's and 
Chinese entities to reform the judicial system, to improve 
transparency in governance, to protect worker and women's 
rights, to promote best practices, and to strengthen civil 
society.
    We continue to promote China's compliance with 
international labor standards through, among other methods, the 
Partnership to Eliminate Sweat Shops Program.
    My written statement elaborates on some of these very 
important projects, and I would be happy to speak to them at 
greater length during the question period.
    As I said in my statement before the Commission last year, 
we will continue to call on China to make the right choices. As 
long as we continue to have concerns about human rights and 
religious freedom, as long as China is either unable or 
unwilling to address them, we cannot realize the full potential 
of this bilateral relationship.
    I would also like to say just a few words about America's 
engagement with China outside the area of human rights and 
democracy. Our relationship with a rapidly changing and dynamic 
China is, as Secretary Powell often says, too complex for a 
single sound bite, bumper sticker, or slogan. But we are 
committed to building the kind of relationship with China that 
will promote a broad range of U.S. interests.
    Right now, examining our current relationship, we are 
working on a wide variety of issues, including North Korea, 
counter-
terrorism, trade, and nonproliferation, where we do have very 
frank discussions and we do have an opportunity to advance an 
important agenda that supports U.S. national interests.
    Of course, a few comments about America's interest in our 
relationships with Taiwan and Hong Kong would be appropriate 
before I close.
    First, with respect to Taiwan, the administration welcomed 
the responsible and constructive tone struck by President Chen 
Shui-bian in his May 20 inaugural address. We hope this message 
will be greeted positively in Beijing and that the PRC will 
take this as a basis for dialog, and which can lead to a 
peaceful dialog between the two sides so they can resolve their 
outstanding differences.
    I would also note that, despite some very harsh rhetoric in 
Beijing's 17 May statement, particularly some very unhelpful 
comments and harmful comments related to the potential for the 
use of force, there were also constructive elements in 
Beijing's statement. So, we do hope that there is something for 
the two sides from which to build.
    As the President has said numerous times, our ``one China'' 
policy is unchanged and we will continue to honor our 
commitments and obligations under the Taiwan Relations Act, as 
well as the U.S.-China joint communiques.
    In the final analysis, the Taiwan issue is for the two 
sides to settle in a way that is acceptable to each, without 
the use of force and without attempts to impose unilaterally 
changes to the status quo.
    As for Hong Kong, we are supportive of the principle 
expressed many times by the Chinese themselves, that the people 
of Hong Kong should govern Hong Kong. We have been very clear 
about our view. Our longstanding policy is that Hong Kong 
should move in the direction of greater democratization and 
universal suffrage.
    Though the Chinese have also reaffirmed this, as recently 
as April this year, the Standing Committee of the National 
People's Congress in Beijing has made decisions that will 
inhibit the pace of democratization. Beijing and the Hong Kong 
government should take steps to ensure sustained movement 
toward a government that truly represents the people of Hong 
Kong. Ultimately, the pace and scope of political evolution in 
Hong Kong should be determined by the people of Hong Kong 
themselves.
    To close and to get back to the theme of today's hearing, I 
would wrap up by quoting Secretary Powell when he spoke at the 
Bush Presidential Library in College Station, TX, last 
November. This is a statement that, of course, remains very 
true today.
    Secretary Powell said, ``Only by allowing the Chinese 
people to think, speak, assemble, and worship very, very 
freely, only then will China fully unleash the talents of its 
citizens and reach its full potential as a member of the 
international community. For our part, America hopes to work 
with China to help the Chinese people achieve their dreams, 
their hopes, their aspirations for a better life for their 
children.''
    By dealing with the aspirations of those who assembled in 
Tiananmen 15 years ago, China can begin to realize the 
potential about which the Secretary spoke.
    Thank you very much, Mr. Chairman. I look forward to your 
comments and questions.
    [The prepared statement of Mr. Schriver appears in the 
appendix.]
    Chairman Leach. Thank you, Mr. Schriver.
    Let me apologize, that on the House side we do have a vote 
that is under way, so that has caused a bit of delay. But we 
thank you for your thoughtful statement.
    Let me just put things somewhat in context. We are here not 
to celebrate but, to acknowledge one of history's great cries 
for democracy, the Tiananmen Square incident, and ask the 
question of whether the echoes of that cry are still being 
heard, and are they being heard principally outside China or 
inside China, and what kinds of evolution is occurring on the 
democratic side within that great society?
    My sense is that, at a freedom of speech level within the 
family, within maybe office space in universities and other 
kinds of communities, that there is a little more freedom of 
speech, but public dissent is virtually non-existent.
    Have you sensed any strides on the democratic side, on 
this, the fifteenth anniversary of Tiananmen, and does the 
State Department assess that sort of thing?
    Mr. Schriver. I think if you look at the period from 1989 
until today, unquestionably there have been progress and 
developments that we view positively in China. I think you have 
noted some, and Senator Hagel, in his opening statement, noted 
some.
    The problem from our point of view, is the pace and scope 
of this change is not happening rapidly enough, and in some key 
areas has not really evolved at all. I think you touched on 
probably the most prominent of those, the ability to voice your 
dissent on government policies to the authorities. There has 
not been very much progress in that area.
    So, broadly speaking, things in China are getting better. 
The sort of objective standard of man-on-the-street quality of 
life, things are better, but certainly not moving at a pace and 
scope that we would be comfortable with and we think would be 
better for China and for its people.
    We, of course, note a lot of the areas of concern in our 
Human Rights Report and in the resolution we offered in Geneva. 
So in certain key areas, the progress is just not where it 
should be.
    Chairman Leach [presiding]. Well, I have a bit of an 
aberrational perspective. That is, I think people misunderstand 
American society, and possibly misunderstand Chinese history in 
the sense that we are a society that had developed separation 
of powers.
    We are also a society that quadruplicated that system with 
the separation of powers at the state, the county, and the city 
levels. So, we have always had a tension between, as well as 
within, levels of government and we have a decentralized 
democracy.
    China also has a great tradition of decentralization in the 
struggle to have a central authority, in some ways, but 
historically, the parts have been dominant relative to the 
center.
    This is a tradition that is good to draw upon rather than 
bad to draw upon. If you combine decentralization with 
democracy, you have a prescription for incredible vitality.
    I raise this in the sense that you have kind of two 
examples, and a third that is not really an example, but it is 
a model of decentralization authority in China, one being Hong 
Kong, another being Taiwan, both very different, and then a 
third nation-state, which is Singapore, which is heavily 
Chinese.
    But it is interesting to me that in Taiwan democracy is 
working, in Singapore democracy is working, in Hong Kong, a 
quasi-democracy is under way, and aspirations for a fuller 
democracy are clearly in place. All three of these places are 
doing incredibly well, and these are models for Chinese 
society, it seems to me, that stand out.
    Now, I raise them in the context, both as models, but also 
as sticking points. Hong Kong is obviously a sticking point for 
Beijing decisionmaking, and it has been a bit imperfect to 
date. It almost seems as if they are fearful of more democracy, 
fearful that the model might work.
    In Taiwan, where you have democracy, one is apprehensive 
that miscalculations can occur. Here, I want to compliment the 
administration in particular on what I consider to be a very 
thoughtful 
articulation of views, both reflecting the history of American 
involvement on the cross-Strait relations issues, but also 
underscoring our concern that miscalculations can occur. I am 
personally very apprehensive about irrational acts and 
irrational statements and miscalculations that could lead to 
astonishingly difficult moments in the cross-Strait 
circumstance.
    So, what I would principally like to ask is how you assess 
Beijing's reaction to President Chen's statement in the sense 
of, are there responses the U.S. Government has received, and 
are we advocating confidence-building kinds of measures that 
can follow on to both of these speeches, both the May 17 
Chinese speech and President Chen's speech, in ways that can be 
constructive?
    Mr. Schriver. Thank you, sir.
    Well, in terms of Beijing's reaction to the inaugural, of 
course, they preempted it somewhat by releasing a statement 
three days prior to the inaugural which had, unfortunately, 
some very harsh rhetoric. But there were, as I noted in my 
statement, some constructive elements there.
    For our part, what we are attempting to do in our 
respective dialogs with Beijing and with the Taiwan authorities 
is to try to highlight the fact that each side has made some 
compromises in terms of just the rhetoric in these two 
statements, as well as laid the potential foundation and basis 
for dialog. There is a great deal of work that the two sides 
would have to do to make that bridge to actually get to the 
point where they can sit down at the same table.
    But we think both sides have taken constructive steps, and 
for our part, again, in our dialog with Beijing and with the 
Taiwan authorities, we try to highlight that and encourage them 
to take advantage of this opportunity, and advantage of the 
fact that we think the trend lines are moving modestly, but 
moving in the right direction.
    Mr. Chairman, I would be remiss if I did not note your own 
constructive role in this with your participation at the 
inaugural and the important messages that you conveyed in 
Taipei.
    It is things like that visit and other efforts at dialog 
with the Taiwan authorities where we hope to be as clear as 
possible about our policy, and as clear as possible about the 
direction we hope the two sides will move. I think the 
foundation may be there, but there is an awful lot of work that 
remains for the two sides.
    Chairman Leach. Well, thank you.
    Mr. Chairman, I would just wish to seek unanimous consent 
to place a statement that I gave to the Library of Congress a 
couple of weeks ago, and a statement that I intended to open 
with today, in the record.
    Senator Hagel. Well, Mr. Chairman, I would move that that 
unanimous consent request be approved, and would formally hand 
the gavel back to you, so you do not need my permission any 
more on these things.
    So, Mr. Chairman, here is the gavel.
    [The prepared statements of Representative Leach appear in 
the appendix.]
    Senator Hagel. Now, may I ask a question?
    Chairman Leach [presiding]. Senator Hagel, you are 
recognized for as long as you see fit.
    Senator Hagel. Thank you, sir. Thank you, sir. It does not 
happen often in this business.
    Thank you, Mr. Schriver, for coming before us and for the 
good work that you and your colleagues are doing. I would add 
my endorsement to your comments regarding Chairman Leach's 
presence in Taiwan at the inauguration, and the instructive and 
important contributions that he made in what he had to say, and 
the relationships that he further developed there.
    So, I acknowledge that and thank Chairman Leach for what he 
continues to do in regard to development of our very critical 
relationships in that part of the world.
    A general question. What impact do you believe we have had, 
the U.S. Government, on human rights in China since 1989? As 
you have developed some of the projects, programs, 
accomplishments and changes in your testimony, and in response 
to Chairman Leach's questions, generally, have we been helpful 
and effective? Realizing it is imperfect, but address that in 
maybe a more general universe.
    Mr. Schriver. Yes, sir.
    Senator Hagel. Thank you.
    Mr. Schriver. I think it is, of course, challenging to 
speak with great specificity because there are a number of 
factors that would impact the pace of change in China, but I 
think our programs have been effective in a number of areas.
    Capitalizing on China's interest in modernizing its economy 
and becoming a part of the global economy, its interest in 
joining the World Trade Organization, we have had many programs 
and efforts designed to help China meet its obligations, 
understand rule of law, and particularly in areas related to 
commercial law. I think there is spill-over and residual 
effects on human freedoms in that area.
    We have had a number of efforts under this rule of law 
program to train judges, to train lawyers, and although the 
ultimate impact to fully understand it may be, in fact, years 
from now, I think we are starting to see the signs that this is 
having an impact on how the Chinese conduct themselves in the 
legal area and in the area of judicial reform.
    So, I think as a general point, we are having a positive 
impact. It is, of course, easier when you have willing 
participants on the Chinese side, and that is why I think we 
have had greater progress in commercial law and in trade areas. 
But even in the areas that are more contentious, I think we 
have had a positive impact.
    These are not static programs and it is not a static 
situation. We do seek to learn and evaluate the success or 
limitations of our programs and try to fine tune them so that 
we can have the right kind of impact that we want.
    Senator Hagel. Thank you.
    How would you rate U.S. bilateral talks, dialog with China 
on human rights with other countries' efforts in this regard 
with China?
    Mr. Schriver. It is improving. I would have to very much 
praise the efforts of my colleague in our Democracy, Human 
Rights and Labor Bureau, Assistant Secretary Lorne Craner, who 
has made this a central part of his effort to address China, 
and that is to reach out to colleagues in the EU, and others, 
who have dialog with the Chinese in the area of human rights.
    It is important to find out where they are having success, 
where they are meeting limitations, and understand what is 
working and not working from each other's perspectives. There 
are also very tangible ways, things like exchanging prisoner 
lists and data that perhaps other countries have that we do not 
have.
    Again, praising my colleague Mr. Craner, this has been a 
central part of his effort to address the human rights 
situation in China, and I think this has vastly improved.
    Senator Hagel. Thank you.
    You noted this, I believe, in your testimony, but just to 
review a point and then to get to the question. China's 
National People's Congress issued a series of decisions in 
April of this year regarding the possibilities for universal 
suffrage in Hong Kong.
    Here is the question. How do you interpret what appears to 
be China's harder line regarding Hong Kong?
    Mr. Schriver. It is something I always do with great 
trepidation, try to identify the precise rationale or thinking 
behind these moves by the Chinese. I suspect it emanates from 
some very fundamental discomfort with democracy, and they 
perhaps might look at the experience on Taiwan to inform 
themselves of that. And it also relates to their attempt to 
balance stability and economic progress with political 
evolution.
    I think they are coming down on the wrong side as they make 
these decisions, and ultimately they may not achieve the 
stability they hope for as people in Hong Kong start to read 
these actions for themselves and see them as inhibiting the 
pace of political evolution.
    So, we think the key is not to challenge Chinese 
sovereignty or to question the Basic Law or the system of one 
country, two systems, because the foundation for success is 
there if all of this is faithfully implemented.
    The challenge is to meet the aspirations and the 
expectations of the people of Hong Kong, and that is why, in 
the statement, I said that should be the ultimate determiner of 
the pace and scope of change in Hong Kong, the desires, 
aspirations, and expectations of the people themselves. If 
Beijing makes decisions that meet those aspirations, I think 
that is a better recipe for the stability that they desire.
    Senator Hagel. Following in that same vein, a larger 
internal political question. Recent stories in our newspapers 
have focused on the possibility of a significant internal 
struggle going on within the Chinese Government, the new 
leadership under President Hu and Premier Wen versus the former 
president, President Jiang, and other leaders of his 
administration.
    First, do you believe there is an internal struggle going 
on, and how is that affecting or not affecting what we are 
talking about here today? Thank you.
    Mr. Schriver. Thank you, Senator.
    Again, it is an opaque situation for us on the outside, and 
difficult to make very precise observations. I think, at a 
minimum, there probably is some competition.
    Perhaps you could imagine a spectrum on which on the one 
side would be sort of normal bureaucratic competition you might 
find in any government, allies of one camp or another vying for 
power and influence, and perhaps on the other side of the 
spectrum would be much more sort of adversarial competition 
between two ideological camps, and perhaps the truth lies 
somewhere on that spectrum. It is hard to say.
    But there is ample evidence that there is some competition 
under way between Jiang Zemin, his followers, and those of the 
next generation of leadership. How it impacts decisions and 
policies coming out of Beijing, again, very difficult to say. I 
think it, at a minimum, makes it more difficult for the new 
leadership to be political risk-takers, to think creatively and 
to be forward-looking on sensitive issues like Hong Kong and 
Taiwan, and human rights domestically in China.
    So, perhaps this new generation of leaders are, in fact, 
the ones who will ultimately make enlightened decisions and 
choices about these kinds of things, but I think the current 
competition, or struggle, whatever phrase you want to use, 
probably does place limitations on them right now.
    Senator Hagel. Thank you.
    You mentioned China's entry into the WTO, the United 
States' efforts over the years to help bring that about. I 
happen to support that effort and agree with that action.
    The question is what role should there be, if you believe 
there should be one, for U.S. companies, commercial interests, 
to help promote human rights development?
    Where is that line? Is it all woven into the same fabric? 
Is it part of that responsibility, as you have noted, the WTO 
entry, and to your answer regarding overall human rights 
efforts, that we have helped achieve?
    Mr. Schriver. Yes, sir, I think there is a role. In fact, 
of course, there are certain legal requirements that U.S. 
companies must meet, and implicit in that would be their 
requirement to have programs to make sure that there are 
certain standards in the labor that they use, and in their 
practices in China.
    But I think it is in U.S. companies' interests to have a 
China that is essentially moving forward in the area of human 
rights, and in particular in areas like labor standards, health 
and safety standards.
    Companies can play a role just by demonstrating best 
practices through training and through more formal programs at 
a pace and scope that China is comfortable with, but I think it 
is a very important contribution to the landscape in China and 
how things will change.
    Senator Hagel. Do you think our U.S. business interests are 
doing enough in this area?
    Mr. Schriver. Well, I think it is a challenge for them to 
be really leaning forward far, because they have to operate in 
a difficult environment in China. But I do think that, for the 
most part, U.S. companies are doing the right thing and playing 
a constructive role.
    Senator Hagel. Mr. Schriver, thank you.
    Mr. Chairman, thank you.
    Chairman Leach. Well, thank you, Mr. Chairman.
    Mr. Levin.
    Representative Levin. Thank you. I am sorry I missed your 
testimony. We had a vote in the House.
    Sir, let me just ask you a couple of questions. I think we 
expect you to be somewhat cautious in your answers. Our 
relationship with China is an important and not very easy one, 
so your being diplomatic is perhaps understandable. But I think 
it is useful for us to try to be as specific and to the point 
as we can within your responsibilities.
    When we worked on China PNTR, the basic notion was that we 
needed to combine engagement and pressure. Today's hearing, in 
a sense, is a test of that approach. So let me just follow up 
Senator Hagel's question about Hong Kong and what our reaction 
was when the Chinese Government essentially said to the people 
of Hong Kong, ``You are not going to select the chief executive 
and there is not going to be the promised, or planned, or 
prospective election legislatively.'' What did the U.S. 
Government say, formally, and who said it?
    Mr. Schriver. Yes, sir. We did a variety of things, 
publicly and privately. We expressed views to representatives 
in Beijing, in Washington, and to the Hong Kong authorities 
directly.
    But publicly, I would actually have to check the record. I 
think it was a White House statement. But certainly there would 
have been State Department support for that, and certainly 
speaking from the podium, our spokesman, I know, has addressed 
this through questions many times.
    We think it was a decision, though, within China's right, 
as laid out in the Basic Law, as the sovereign, to have a say 
in these matters. We think it is was a decision that was 
unhelpful and, ultimately, counterproductive.
    As I said, if China is seeking to balance economic 
prosperity and stability with the political evolution, we think 
they are coming down on the wrong side with these decisions.
    Hong Kong is one of the most sophisticated, modern, 
cosmopolitan cities in the world. Clearly, Hong Kong residents 
are ready for greater political participation and freedom, and 
clearly they have aspirations and expectations that the Chinese 
have helped create that now China is not meeting.
    So, this is not a recipe, we think, for the things that 
even China wants, the stability that they profess to want. We 
think that there will be a negative reaction among the people 
of Hong Kong to these decisions. We have made that known 
publicly and we have expressed that in our representations in 
the capital in Beijing.
    Representative Levin. And so you said it is what China 
wants, you are referring more broadly. Why was the action taken 
by the Chinese Government if it is clearly not what the people 
of Hong Kong wanted?
    Mr. Schriver. Well, sir, again, being an opaque system, it 
is always hard to state with great specificity the rationale 
behind these decisions, but one could probably guess that it 
has a couple of motivations. Clearly, China has a profound 
discomfort with democracy, and perhaps that is informed by the 
experience they see unfolding in Taiwan, perhaps it is informed 
by some of their own history, and so they are determined to 
have a very firm grip on the pace and scope of democratization 
there.
    But, also, there appears to be some calculation that this 
is a move that will enhance stability at the cost of political 
evolution. We think that calculation is wrong.
    Representative Levin. Stability where?
    Mr. Schriver. In Hong Kong.
    Representative Levin. In Hong Kong or the rest of China?
    Mr. Schriver. Well, I think if they----
    Representative Levin. It is not Hong Kong's stability that 
is in question, is it? You said you think they think that 
democracy in Hong Kong would destabilize Hong Kong or 
destabilize China outside of Hong Kong?
    Mr. Schriver. Again, sir, all this is speculative on the 
Chinese rationale. But I think they were unnerved by 500,000 
people taking to the street last July 1, and then another very 
large protest over the winter, to the extent that they became 
uncomfortable with the pace of change in Hong Kong and the 
prospects for stability in Hong Kong. So, I think their 
decisions were motivated by trying to seek stability both in 
Hong Kong and in China.
    Representative Levin. I think that is too diplomatic. In 
this sense, I do not think democracy is a challenge to 
stability in Hong Kong.
    Mr. Schriver. I agree with you.
    Representative Levin. I mean, 500,000 people in the 
streets? There were 500,000 people in the streets of Washington 
a few months ago.
    Mr. Schriver. I agree completely with you. I was trying to 
take a guess at what might be motivating the Chinese, and I 
think they do come down on the wrong side of this calculation.
    Representative Levin. All right. Then one other question, 
Senator Hagel. I am sorry, Mr. Leach, I missed your questions.
    He asked you about the role of the business community and 
about human rights standards and international labor standards. 
They are becoming more and more an issue as China competes.
    We all know that China is more and more a competitive force 
in this world--by the way, it is in terms of energy purchases--
as a reflection of their economic growth, which has been 
pronounced. So as they compete, more and more it raises the 
issue of whether they are going to, over time, and in not too 
long a time, begin to comply with recognized standards, both 
human rights standards and with internationally recognized 
labor standards.
    On page 4, when you discuss that we are also promoting 
China's compliance with international labor standards, you 
refer to the Partnership to Eliminate Sweatshops Program. But I 
think everybody would acknowledge that that is, at best, one 
way to address it and it is not going to have, in the immediate 
future or foreseeable future, likely, a major impact.
    So let me ask you this. When people in China raise 
questions about the failure of entities to meet China's own 
stated provisions, or where someone tries to group together 
within a factory when there are layoffs or when there is a 
failure to pay and those people are put in prison, which has 
happened, what is our policy? What is our program? What do we 
do?
    Mr. Schriver. Well, obviously, we take a very negative view 
of that. We are attempting, in a variety of ways, to address 
that. It will be addressed in a very senior dialog between our 
Secretary of Labor and Chinese counterparts, but it is also 
addressed through the programs that I have mentioned in the 
written statement.
    But I think it is important to take a look at the lay of 
the land in China and to see that the evolution is very uneven, 
and in some parts of China they are having greater success at 
improving standards and conditions than others.
    Representative Levin. What conditions? You refer to 
``conditions'' meaning what?
    Mr. Schriver. Safety, worker rights.
    Representative Levin. Worker rights. Do you think in some 
places, if I might ask you, and then I will finish, workers 
have more ability to protest than in others?
    Mr. Schriver. I think workers have had a better track 
record of success in attaining those rights. I think virtually 
anywhere in China, if you attempt to organize and approach your 
employer or approach authorities as part of an organized group, 
that is still regarded as a threat the authorities and they do 
not allow it.
    But I think workers have attained rights at an uneven pace 
around China. And I think, particularly, this relates to the 
previous question, where there is a strong influence of 
American and Western companies, they have done better.
    Representative Levin. You might supply for the record how 
you think worker rights differ depending on who owns the 
entity, because there is going to be increased pressure here as 
we expand trade with China that we not compete with them based 
on the suppression of workers.
    I understand and hope I realize the complexity. I do not 
say it is simple. They have immense pressures in terms of added 
employment. But I do not think it helps to kind of sugar-coat 
what really is going on in terms of their becoming increasingly 
anything close to a free labor market there and the ability of 
workers to stand up for themselves. If that continues, there is 
going to be increased difficulty in our economic relationship 
with China. More and more, they are shipping goods here.
    In fact, I read about, in Texas, some entrepreneurs, 
Americans, are opening up a dealership to sell automobiles made 
in China and shipped here, and they are going to sell them for 
$8,000 or $9,000, apparently. It is not clear what the quality 
is. But the more that flow goes back and forth, and I am in 
favor of flows going back and forth, there is going to be 
concern about the basis for competition and the extent to which 
there are any standards at all abided by China in that 
competition. It is going to come not only from American 
workers, it is going to come from workers in Mexico, it is 
going to come from workers in other parts of Latin America, it 
is going to come from workers in other parts of Asia.
    The Vietnamese and the Cambodians are very concerned about 
competition in apparel and textiles from China. We have taken 
steps to try to help, for example, Cambodia, move away from a 
Communist command economy toward a free society economically. 
If we just take no position or essentially say it is 
irrelevant, what China does, it is going to increasingly 
complexify our relationships and the support in this country 
and other countries for a free flow of goods. So, I think there 
is a need to be very direct and clear about this, and for there 
to be an active role for the U.S. Government.
    Thank you, Mr. Chairman.
    Chairman Leach. Thank you very much. I have taken note of a 
new verb, complexify. I like it a lot.
    Representative Levin. It is used in Michigan all the time.
    Chairman Leach. All right.
    Mr. Pitts.
    Representative Pitts. Thank you, Mr. Chairman. Again, thank 
you for holding this important hearing today.
    Mr. Schriver, China will host the Olympics in 2008. Could 
you explore how this event could be used to bring improvements, 
lasting improvements, to the human rights situation in China, 
please?
    Mr. Schriver. Thank you, sir. It is an excellent question, 
because I think there is an opportunity for this very effect 
that you mentioned in the question.
    Clearly, Chinese authorities understand that there will be 
a major spotlight on China as the Olympics approach, and of 
course during the event itself, so they will want to put the 
best face forward to the international community.
    I would presume that would not include sustaining a lot of 
their current practices which are repressive to individuals and 
to organizations. So, as they prepare to host the Games, we 
would hope there is a debate going on among the leadership in 
Beijing about this very issue, how they might put the best face 
of China forward for the international community to see, and 
how human rights would be included in that. To get into 
specific measures, it is a little difficult. But I think we 
have seen historical examples of this. As a model, I think many 
people point to the 1988 Games in Seoul as having a very 
positive impact on the political environment there. So, this is 
an opportunity for China, and we hope that they seize it.
    Representative Pitts. Thank you.
    With regard to U.S.-Chinese discussions on North Korea, 
what changes do you believe will or will not occur in relation 
to the Chinese Government practice of forcibly returning North 
Korean refugees in China to North Korea? There are highly 
disturbing reports of the North Korean government's torturing, 
killing many who are returned to North Korea by the Chinese 
officials.
    Mr. Schriver. Yes, sir. We have not gotten a satisfactory 
response from the Chinese on this issue, despite having raised 
it in a variety of fora and on many occasions, the senior-most 
levels included.
    Our view is that the Chinese should do a number of things. 
They should allow international relief organizations into the 
area to provide support to the people who come across the 
border. They should allow, as they have committed to in an 
international convention, the United Nations High Commissioner 
for Refugees access to this area to evaluate the individuals 
and their particular cases as to how they should be handled.
    And they should, of course, stop the most troubling 
practice, which is to forcibly return people to North Korea 
against their will. Again, I wish I could say that our 
representations have had an impact, but to date it has been 
unsatisfactory.
    Representative Pitts. In your statement, you said, 
``regrettably, the Chinese failed to move forward with their 
promises''--this is 
regarding the human rights dialog--``especially those relating 
to visits by the U.N. Special Rapporteurs for Torture and 
Religious Intolerance, the U.N. Working Group on Arbitrary 
Detention, and the U.S. Commission on International Religious 
Freedom. We ended up introducing a resolution at the U.N. on 
human rights in Geneva this year.''
    What indications are there that the Chinese Government will 
allow visits, sooner rather than later, of the U.N. rapporteurs 
or the U.N. officials?
    Mr. Schriver. Well, the impact of our decision to do this 
resolution has been, from the Chinese perspective, very 
negative. They, of course, halted our bilateral dialog on human 
rights and they have indicated that they will not move forward 
in areas that we have previously addressed in these bilateral 
discussions. However, we are aware that they have some ongoing 
discussions with these individuals and these organizations 
independent of our bilateral dialog, so perhaps there is room 
for progress even if our dialog is suspended.
    On the particular individuals you mentioned, I am not aware 
that we should be optimistic for a visit in the near future. I 
am not aware that the Chinese have moved forward with any plans 
to host these visits.
    Representative Pitts. Thank you, Mr. Chairman. I will 
submit my opening statement for the record.
    [The prepared statement of Representative Pitts appears in 
the appendix.]
    Chairman Leach. Thank you very much, Mr. Pitts. Without 
objection, that statement will be placed in the record.
    We want to thank you very much, Mr. Schriver, for your 
participation and your good public service.
    Mr. Schriver. Thank you, sir.
    Chairman Leach. Our second panel is composed of Mr. Wang 
Youcai. Mr. Wang was a student leader during the 1989 Democracy 
Movement. He was imprisoned repeatedly for his pro-democracy 
activities. In March 2004, after years of prodding by the State 
Department, the Congress, this Commission, foreign governments, 
and private human rights groups, the government released him on 
medical parole and allowed him to travel to the United States 
for treatment. He now lives in Somerville, MA. This hearing 
will be his first appearance on Capitol Hill.
    Joining Mr. Wang will be Ms. Lu Jinghua, a former 
government worker. Lu Jinghua was among the few women active in 
the Beijing Workers Autonomous Federation during the Tiananmen 
Square protest. After the military crackdown, she was on the 
government's Most Wanted list, one of only four women of 40 
dissidents on that list. She escaped from China in 1989, and 
now lives in New York City where she markets real estate. Ms. 
Lu currently serves as vice president of the Chinese Alliance 
for Democracy, an association of Chinese-born political 
activists who live overseas.
    Our third speaker will be Dr. Andrew J. Nathan. Dr. Nathan 
is the Class of 1919 Professor and Chair of the Department of 
Political Science at Columbia University. His published works 
include ``China's Transition;'' ``China's New Rulers, The 
Secret Files;'' and ``The Tiananmen Papers.'' Dr. Nathan's 
teaching and research interests include Chinese politics and 
foreign policy, the comparative study of political 
participation and political culture, and human rights.
    Fourth, we have Ms. Sharon Hom. Ms. Hom is executive 
director of Human Rights in China and professor of law emeritus 
at the City University of New York School of Law. She sits on 
the advisory board of Human Rights Watch Asia, and the 
Committees on Asian Affairs and International Human Rights of 
the Bar Association of the city of New York. Her writings and 
research have focused on Chinese legal studies, international 
women's and human rights, and critical legal theory.
    If there is no objection, we will begin in the order of 
introductions, and we will begin with Mr. Wang.

STATEMENT OF WANG YOUCAI, FORMER STUDENT LEADER DURING THE 1989 
               DEMOCRACY MOVEMENT, SOMERVILLE, MA

    Mr. Wang. Mr. Chairman, members of the Commission, first, I 
want to express my appreciation to the Commission for all of 
your help in getting me released from prison. I am very glad to 
be here today to share my experiences and express my opinions 
about China's future democracy. In order not to waste your 
time, I will summarize the following points.
    First, it is very important that democratic people and 
democratic governments help promote a successful transition 
from a dictatorship to a constitutional democracy in China.
    The American people and the American government can play a 
great role in promoting China's democracy. It can be done in 
two ways. On the one hand, the American government can exert 
pressure on the Chinese authorities on the issue of human 
rights and democracy. On the other hand, the executive branch 
of the U.S. Government and Members of the U.S. Congress should 
increase contacts with members of the Chinese Government, the 
National People's Congress [NPC], and the Chinese Communist 
Party [CCP].
    The American people can assist in building a civil society 
in China, particularly in supporting the Chinese opposition 
movement and strengthening the China Democracy Party. Such 
contacts with the American government and people, as well as 
with members of the European Union, will make it more difficult 
for the Chinese Government to crack down on efforts to build an 
opposition party in China and will help China build a 
constitutional democracy.
    Second, it is also very important that the efforts to 
promote democracy come from within China. This can be done in a 
number of ways, such as promoting research and setting up 
information centers in China on the development of democratic 
societies and multiparty political systems. Overseas 
foundations and academic institutions can help to support 
colleagues in China in these activities.
    Third, for those working to develop democratic institutions 
in China, it is important that the people who oppose 
constitutional democracy in China be condemned, and that the 
people who support and work for democracy in China be 
recognized.
    It is also important to help those trying to 
institutionalize civil society and strengthen the democratic 
forces in China. Of course, it is most important to isolate and 
condemn the people who promote the dictatorship in the CCP, 
while at the same time avoiding sharp conflicts in the 
furthering of democracy.
    Fourth, as Chinese citizens fight for their civil and 
political rights, they should learn how to organize themselves 
in non-governmental organizations, which bring about 
pluralization of society and institutionalize legal and 
democratic procedures and the rule of law, so that Chinese 
society will be compatible with democratic changes.
    Fifth, as an opposition party, the China Democracy Party 
focuses on grassroots election practices, encourages 
associations for peasants, workers, intellectuals, and private 
entrepreneurs, and CDP candidates to participate in elections, 
and work to carry out fair elections from the grass roots to 
higher political levels.
    In this respect, international help and pressure is 
especially needed. With the improvement in election procedures, 
China is definitely taking a step in the right direction toward 
constitutional democracy.
    While this kind of transition will proceed slowly at the 
beginning, as experience accumulates it will proceed more 
quickly. Unless China makes the transition from a dictatorship 
to a liberal democracy with electoral procedures, non-
governmental organizations, a new constitution that will truly 
protect human rights, limitations on government power with 
checks and balances, and a federal system in the near future, 
the Chinese people may pay an intolerable price in attempts to 
overthrow the CCP regime.
    Such a happening will be very dangerous to the people of 
the 
entire world, as well as to China. Therefore, I hope the 
American government will help and support the growth of a 
reasonable opposition party so that China can follow a path 
similar to that of South Korea or Taiwan. As the China 
Democracy Party is strengthened, it can help to introduce 
modern liberal democracy in China.
    Sixth, because China is such a big country with a huge 
population, the continuation of a political dictatorship will 
be dangerous not only for the Chinese people, but for the 
entire world. If China can become a liberal democracy, the 
present political map of the world will be greatly changed. It 
will also be beneficial to the United States.
    Furthermore, the disruption of a political transition can 
be relatively low if the transition is gradual and kept under 
control. Such a transition is possible because many Chinese 
people are sympathetic to the promotion of a peaceful 
transition in China.
    Seventh, I hope that the American people and the American 
government will provide more help to make Chinese democracy a 
reality. The Commission can play an important role in China's 
transition from a dictatorship to a constitutional democracy.
    Thank you very much.
    [The prepared statement of Mr. Wang appears in the 
appendix.]
    Chairman Leach. Well, thank you very much, Mr. Wang.
    Ms. Lu.

  STATEMENT OF LU JINGHUA, FORMER BEIJING WORKERS AUTONOMOUS 
    FEDERATION LEADER, VICE PRESIDENT, CHINESE ALLIANCE FOR 
                    DEMOCRACY, NEW YORK, NY

    Ms. Lu. My name is Lu Jinghua. On this occasion, 
commemorating the 15th university of the June 4 Tiananmen 
incident, as a participant as an active worker in the movement 
for workers autonomy in China, I am very honored to be able to 
express some of my reflections.
    Fifteen years ago, the Chinese workers were facing a 
tremendous situation where many were out of jobs, and also the 
government officials' corruption was very harmful. Therefore, 
we organized a movement, the so-called Freedom Workers 
Confederation Movement. The federation was formally organized 
and established 15 years ago in Tiananmen Square. Allow me to 
point out, this federation was the first workers' union 
organized by workers since the founding of the People's 
Republic in 1949.
    The current situation now is that workers have no right to 
organize workers' unions by their own organizations. Now, in 
mainland China, the workers work for basically three kinds of 
enterprises. One is a state-owned enterprise, second, the 
private enterprise, and also foreign investment organized 
enterprises.
    Two years ago in the province of Liaoning, in the city of 
Liaoyang, of the many workers working in a factory, 60 percent 
were out of a job. Some workers' wages had not been paid for 
more than a year and a half. Some workers went to the municipal 
government offices to launch a protest demonstration. Their 
demand was simply for the government to punish those corrupt 
officials, and also to give the workers a basic guarantee and 
security of their living expenses. Numerous times, the workers 
went to the municipal People's Congress and went to the city 
government to express their frustration and views, but there 
was no response or solution.
    Two years ago, more than 5,000 workers demonstrated in 
front of the city government building. Among the 5,000 workers, 
there were two leaders. Their names are Yao Fuxing and Xiao 
Yunliang. Yao Fuxing, on the morning of March 17, 2002, after 
he left his home, was arrested by plainclothes public security 
officers. On May 9, 2003, the court sentenced him to jail for 
seven years, charging him with engaging in subversive 
activities against the state. His political rights have been 
deprived for three years.
    The other leader, Xiao Yunliang, was also sentenced for 
four years and deprived of his political rights for two years 
on the charge of engaging in subversive activities against the 
state.
    So, I have now briefed you about the most significant 
recent events concerning workers in the state-owned 
enterprises. Now let me change the subject to those workers who 
work for private enterprises. Workers in the private sector 
often work overtime and also work in shameful conditions, the 
so-called sweatshops. Also, their wages frequently are not 
being paid on time. The only thing the workers can do is simply 
be patient and endure.
    Why is it that workers have to suffer this condition? It is 
because the workers cannot organize their own union in China. 
From the outside world, we look at the Chinese economic 
situation and it has great momentum. Many enterprises have been 
privatized. Also, foreign-owned enterprises will also enter 
into China, but the power and the wealth is still in the hands 
of those owners. Therefore, the Chinese workers do not enjoy 
their own rightful power in their own hands. In the past 20 or 
30 years, the Chinese worker was supposed to be the leader of 
the social classes in China. However, in reality workers as a 
class have degenerated into one of the weakest and most 
disadvantaged groups in society.
    Thank you.
    Chairman Leach. Well, thank you very much, Ms. Lu.
    Ms. Hom.

 STATEMENT OF SHARON HOM, EXECUTIVE DIRECTOR, HUMAN RIGHTS IN 
 CHINA, AND PROFESSOR OF LAW EMERITUS, CITY UNIVERSITY OF NEW 
                YORK SCHOOL OF LAW, NEW YORK, NY

    Ms. Hom. Thank you, Mr. Chairman. I would like to submit my 
written statement into the record and use my oral speaking time 
to pick up on selected points. If appropriate, I would like to 
also address some of the questions and concerns that have 
already been raised by the members this morning.
    Chairman Leach. Without objection, your full statement will 
be placed in the record, and any expanded statement of the 
prior witnesses will be placed in the record. The full 
statement of Dr. Nathan will be placed in the record.
    Ms. Hom. Mr. Chairman and members of the Commission, on 
behalf of Human Rights in China [HRIC], thank you for this 
opportunity to make this statement. It is really an honor to 
testify today alongside of the activists and leaders from the 
1989 movement, and of course my wonderful colleague, Professor 
Nathan.
    HRIC is an international NGO founded by Chinese scientists 
and scholars in March 1989. Our mission is to promote 
universally recognized human rights and advance the 
institutional protection of those rights in China. Through our 
advocacy on behalf of over 2,000 political prisoners over the 
last 15 years, in collaboration and partnership with the U.S. 
Government and the international community, and our research 
and education, we work to measure, monitor, and promote human 
rights.
    Our work is informed and inspired by our fundamental belief 
that democracy is both possible and inevitable in China. 
Fifteen years ago, the Chinese Government ordered the 
unthinkable, the use of military force by the People's 
Liberation Army on the people, and crushed a peaceful protest 
movement. It is believed that more than 2,000 people died in 
various Chinese cities on June 3 and 4 and the days following. 
The Tiananmen Mothers have documented at least 182 victims, 
including three who died at the Square. Following June 4, more 
than 500 people were imprisoned and an 
unknown number were executed. Some 130 people, at least, are 
believed to remain in prison for crimes connected with the 1989 
protest. However, the total accurate number of dead, wounded, 
imprisoned, and executed remains unknown. Fifteen years later, 
why is this still the case? First, the Chinese Government, 
despite internal debates, refuses to engage in a public 
reassessment, despite calls for it. However, Chinese history 
demonstrates that a reassessment is possible. For example, the 
Anti-Rightist Campaign and the Cultural Revolution.
    Second, China's pervasive legal, regulatory, security, and 
police control over sensitive political issues and events 
ensures that the cost of writing, publishing, or investigating 
June 4th will be high and include facing criminal charges of 
endangering state security or leaking state secrets, with 
subsequent imprisonment.
    Third, China's growing economic power and international 
role has contributed to the sidelining of human rights by the 
international community when they conflict with trade, 
military, or other geopolitical interests and priorities.
    Fourth, the opportunistic invocation of the post-9/11 war 
against terrorism by the Chinese Government has allowed it to 
crack down on peaceful assertions of religious and cultural 
identity in the name of fighting terrorism. Today, the ``No 
Deaths in the Square'' proclamation and the label of 
counterrevolutionary rebellion remains a bloody stain on the 
legitimacy of any official claims to progress. Over the past 15 
years, the Tiananmen Mothers, and more recently by Dr. Jiang 
Yanyong, along with HRIC and many other groups and individuals, 
have repeatedly called for an independent investigation.
    Yet, the statement by Chinese Premier Wen Jiabao this past 
March, ``We must concentrate all our time, energy and efforts 
on the development of our country . . . if China could have 
another 20 to 50 years of stability, our country would surely 
emerge stronger than ever before.''
    This assertion of the primacy of stability, i.e., stability 
as synonymous with the survival of the supremacy of the Party, 
is a sobering echo of the statement 15 years ago about the 
necessity to ``kill 200,000 for 20 years of stability.''
    I wanted to reference Congressman Leach's question about 
the evolution of democracy and refer you to the open letter to 
Chinese compatriots that the Tiananmen Mothers have issued, and 
we have issued and translated on their behalf, and is available 
on our website.
    That is, one very different development of this petition 
from previous letters is that this letter is an open call not 
only to the international community and the Chinese Government, 
it is a call to the Chinese people themselves, directly. It is 
a powerful call to the people themselves.
    Second, it is a clear rejection of the invocation of 
economic progress as a rationale for political repression. 
Third, it names the 1989 crackdown for what it was, a crime 
against the Chinese people and a crime against humanity, and in 
violation of Chinese law and international law.
    Is democracy in China's future? Yes, but it is interrelated 
with the promotion of human rights and a rule of law that is 
transparent, fair, in a judiciary and process independent of 
the Party.
    Although there have been improvements, the human rights 
situation, as documented by the World Bank, UNDP, Chinese 
researchers themselves, human rights NGOs, including HRIC, 
reported by this Commission in your very excellent report and 
the excellent U.S. State Department country reports, that the 
human rights situation has deteriorated seriously and is marked 
by growing social inequalities and poverty, massive 
unemployment, environmental degradation of a crisis dimension, 
severe restrictions on freedom of expression, crackdowns on 
ethnic minorities, religious groups, independent political 
parties or unions, independent media, and the use of torture 
and treatment of prisoners, arbitrary detentions, and arrests. 
Lawyers taking on cases that are politically sensitive may find 
themselves intimidated, or themselves the target of repression.
    I should also note for the record, apropos of the last 
exchange, that Mr. Van Boven, the special rapporteur on 
torture, is scheduled to make his mission to China, which 
coincides with the first day of the EU-China Human Rights 
Seminar.
    Today, 15 years after Tiananmen, facing severe labor and 
social unrest, China is not more stable, nor can it claim 
sustainable progress and equitable economic development. True 
social stability requires as fundamental conditions protections 
of human rights, democracy, and rule of law. The order that is 
maintained in the absence of these conditions is, in fact, just 
social repression and control. Chinese democracy will require a 
vibrant civil society, not a limited, non-critical realm where 
any views contrary to the Party are silenced. Whatever 
direction the Chinese leadership takes, the Chinese Government 
cannot legitimately continue to claim that it alone can define 
democracy, even socialist democracy, as only what it will 
allow, or that progress will be measured predominantly by the 
interests of economic and political elites, or that elections 
such as for Hong Kong's LegCo, will be permitted, but only if 
the results are what it approves.
    Yet, democracy is inevitable because the aspirations, 
hopes, and the willingness to struggle are still powerfully 
present and alive, against all odds, in China.
    Despite the brutal invocation of military violence, despite 
a 
pervasive and powerful Chinese propaganda, police, and security 
apparatus, despite China's growing economic power that China 
manipulates to undermine scrutiny of its human rights record, 
and a privileged and powerful Chinese elite that is bought off 
by economic and political benefits of supporting the present 
policy, 
despite all this, courageous Chinese, the Tiananmen Mothers, 
journalists, intellectuals, peasants, workers, students, 
Internet activists, religious practitioners, lawyers, artists, 
and poets continue to write, speak and organize mass 
demonstrations, form independent political parties, independent 
unions, petition the government, and to appeal to international 
fora.
    We support these human rights activists and we think that 
one way by supporting them is to remember the past and not 
allow the Chinese authorities' control over information and 
censorship to result in historical amnesia. The Chinese 
Government certainly has not forgotten and its recent actions 
in suppressing and rounding up people reflects a government 
that is profoundly still fearful and distrustful of its own 
people.
    Let me close with a few recommendations directed at the 
Commission and the U.S. Government, and that picks up on some 
of the comments.
    As part of the bilateral and the multilateral processes, 
including the U.N. and the WTO, the U.S. Government should 
continue to exert its influence by raising human rights issues.
    But in terms of U.S. policies on China, first, in terms of 
bilaterals, compared to the EU-China bilateral, which has 
publicly announced benchmarks and will issue a formal 
assessment of it by the end of 2004, we urge the U.S. 
Government to consider doing similarly.
    Second, in the other bilaterals, NGO actors, including 
human rights actors, are invited to be observers, most 
recently, in the EU-China human rights dialog, and we were 
invited as well in December. We urge the United States to press 
for the inclusion of NGO voices in these bilateral processes.
    Third, in terms of the spillover of rule of law in 
commercial areas, we think this is premature--and we have 
actually had some reports and assessments of it and they are 
all available on our website. I reference it in the testimony 
and it is available--because of the same problems in 
implementing rule of law, transparency, accountability, 
independent decisionmaking in the commercial area are the same 
areas that are relevant to human rights and democracy, and it 
is not making progress in either area.
    Fourth, the question about the role of U.S. business and 
WTO. There is a convergence here that is really important that 
the U.S. Government could exploit, and that is the convergence 
in China now on the part of Chinese leaders and the business 
community and interest in corporate social responsibility, 
reflected in recent conferences and upcoming conferences in 
China and China's participation in the U.N. Global Compact, 
which will be meeting in China this year.
    We would urge the U.S. Government to explore what the role 
of U.S. business could be, to put that in the perspective of 
international business community and codes, including the OECD 
Guidelines and the recent U.N. guidelines on business.
    On the Olympics, it is not only an opportunity for China to 
demonstrate that it is becoming a good global citizen, but I 
think it is an opportunity for the U.S. Government and U.S. 
business to explore much greater creative synergies about how 
to ensure several things. First, that U.S. business is not 
complicit in human rights violations such as rounding up 
dissidents, cleaning up migrant workers, et cetera. Second, on 
the positive side, that the U.S. Government has a role in 
assessing whether there are relevant U.S. laws regulating U.S. 
actors in three key sectors that the Olympics preparations 
invoke between now and 2008, telecommunications, the building 
of a security system for the border control and for 
protection of the Games, and for the actual site construction. 
U.S. companies and law firms have been bidding for and have 
secured contracts on these Olympics-related projects.
    With respect to your technical assistance programs and 
exchange initiatives that the State Department and other parts 
of the U.S. Government have supported, we urge you to build in 
a human rights assessment and concrete benchmarks for these 
programs. We echo Wang Youcai, and, of course, Lu Jinghua's 
calls for greater support for bulding civil society in China.
    Finally, in negotiations on behalf of individual political 
prisoner cases, we also want to respectfully suggest that 
exiling dissident voices is not a sign of progress and does not 
contribute to the systemic reforms necessary for the 
advancement of democracy and human rights. Individual political 
prisoners should be released without conditions on their 
peaceful exercise of their rights and be allowed to remain 
within their own country. That would be the true litmus test 
for democracy in China. Thank you.
    [The prepared statement of Ms. Hom appears in the 
appendix.]
    Chairman Leach. Thank you, Ms. Hom.
    Dr. Nathan.

 STATEMENT OF ANDREW J. NATHAN, PH.D., CLASS OF 1919 PROFESSOR 
   AND CHAIR, THE DEPARTMENT OF POLITICAL SCIENCE, COLUMBIA 
                 UNIVERSITY, NEW YORK CITY, NY

    Mr. Nathan. Thank you, Mr. Chairman. Thanks for the 
opportunity to testify today. I am going to keep it very short 
because I have a cold, and my voice will give out.
    You will hear a bit of the other side of the coin from me, 
because although many people do expect democratization, and we 
have been expecting democratization, what I am going to suggest 
is that, up until now, the regime has proven resilient. I call 
it a resilient authoritarianism.
    The reasons for that, are several. Some of them are 
achievements made by the regime in the economic area and 
foreign policy area, which have increased its prestige among 
the Chinese people.
    Then there are limited reforms that the regime has 
undertaken in the area of building institutions for citizens to 
make demands and complaints. But these changes are not reforms 
aimed at 
democratization, but they rather encourage individuals to make 
complaints about specific local-level agencies or officials 
without challenging the system.
    The Party has co-opted the middle class, the entrepreneur 
class. Then, finally, the Party leadership itself has 
maintained its unity and its grip on power and it has continued 
to make effective use of repression. So, these are some of the 
reasons why I think the regime today appears to be quite strong 
in its grip on power.
    The question has arisen in these hearings, and frequently 
comes up, whether there have been improvements in human rights 
in China since Tiananmen. My response to that is that, in the 
core area that we are interested in when we usually raise that 
question, civil and political rights, there has not been any 
improvement. People still do not have the right to organize to 
speak politically or to challenge the regime in any way.
    So, coming to my conclusion, I am not predicting that 
democratization will not happen. It may happen sometime in the 
future. But I would open up the possibility that it is not 
inevitable. China has established what is, for the time being, 
apparently, a strong developmental authoritarian regime which 
is repressive, and yet has widespread popular support, and 
support from its own middle class.
    I do not mean by those analytic comments to counsel that 
the U.S. Government or private actors do nothing. I think we 
should be active. I am on the board of Sharon Hom's 
organization and I support all of the recommendations that she 
made.
    Thank you very much.
    [The prepared statement of Dr. Nathan appears in the 
appendix.]
    Chairman Leach. Well, thank you all very much. I 
particularly appreciate the perspectives of Ms. Hom and Dr. 
Nathan. But I think, on behalf of our colleagues, we want to 
express my extraordinary appreciation for the people who have 
actually made observations and have been placed in jail.
    That is something that, as Members of Congress, we do not 
do. Now and again, people say, a Member of Congress made a 
courageous vote. I do not think such ``courage'' exists, 
because there is no down side to a vote. There is a huge down 
side to the steps being taken by some people within China.
    May I ask that the two that have come most recently from 
China that have lived there, do you have a sense that the 
country has a living memory of Tiananmen Square? Is this an 
event that people think about and talk about as a society or is 
this incident all in the past tense for the Chinese people?
    Mr. Wang. Thank you, Mr. Chairman. Your question is whether 
the Chinese people still talk about the Tiananmen Square 
incident or not. So far as I know, currently in China people, 
privately, still very much talk about the Tiananmen massacre. 
Also, they still have a vivid memory about a whole series of 
events. However, the government still strongly exercises 
control. Therefore, the media are not able to really open this 
question.
    Chairman Leach. Ms. Lu.
    Ms. Lu. Our sense is that on the Tiananmen events, they 
have people to join them and they watch them. The people know 
how the Chinese Government treated our friends and co-workers. 
So, we would like for China to be changed and we hope in the 
future China will be changed, with democracy and freedom for 
all people. We also remember 1989, 15 years ago, and what 
happened then. But we are really weak. For the Chinese 
Government, they will be strong and they will crush all the 
people who dissent. That is, right now, what is happening.
    Chairman Leach. I was recently in East Asia, and among the 
stops I made was in Singapore. It was interesting to me that in 
Singapore, where the government has from time to time 
imperfectly cracked down on the free press, it has now made an 
experiment in a small park.
    It put a ``Speaker's Corner'' in this park that is very 
much designed to be an analogy to Hyde Park in London. People 
have liked it. They like the idea that they can go and express 
their views of government policy and social conditions. Do you 
think it would be helpful, in the Chinese circumstance, to take 
Tiananmen Square and erect in corners of it ladders that could 
serve as political soap boxes? Would that be an interesting 
testament to the past, and a different kind of future?
    Mr. Wang. Mr. Chairman, I think for the time being, it will 
be very difficult. If somebody dared to do so, their activity 
will definitely be suppressed or repressed. Yet many people are 
still devoting their life to promoting China democracy. And 
many of them are suffering in prison.
    However, if you talk about looking forward to the future, I 
think there are chances for China to be a democracy because 
people still talk about democracy, and also talk about 
establishing a civil society, and talk about civil rights 
issues.
    So, in a nutshell, we Chinese are in the international 
community now. The Chinese people are more aware of what is 
going on around the world now, and privately they are still 
talking about democracy in China. So, in the future, I think 
there are definite opportunities China will become a 
democratized nation.
    Chairman Leach. Ms. Lu.
    Ms. Lu. Mr. Chairman, you mentioned this issue. I think for 
the time being it is still a dream or a fantasy. Under the 
circumstances, politically, it is still not possible. However, 
the Chinese authorities still are taking into consideration the 
opinion of the international community, so the Chinese 
authorities have to modify their policies in view of 
international opinion.
    Chairman Leach. Well, thank you very much.
    Let me ask a final question to Dr. Nathan and Ms. Hom. As 
was referenced earlier, in February, Dr. Jiang Yanyong 
delivered a letter to China's leaders calling for reassessment 
of the Tiananmen Square issue. When the Premier was asked about 
it at a press conference he did not acknowledge receipt of the 
letter, but he seemed to describe the Tiananmen incident in 
slightly more mild terms than his predecessors.
    Do you think this is a beginning of a reassessment of 
Tiananmen in Communist Party circles or is this a circumstance 
where people are reading too much into a milder response?
    Mr. Nathan. The person who handled the crackdown in 1989 
for the then-Premier Li Peng, was a man named Luo Gan. Luo Gan 
is now one of the nine members of the Politburo Standing 
Committee. Li Peng himself has retired from office, but he is 
still very active. Jiang Zemin, who came to power through the 
Tiananmen incident, continues as the chairman of the Central 
Military Commission, and has four or five close associates on 
the Politburo Standing Committee.
    For that set of reasons, there is no chance, in my view, 
that the regime will reevaluate Tiananmen in the near future. 
There is also a second consideration which came up in the first 
panel, which is that if the regime is this hard-line on 
democracy in Hong Kong because it fears the impact of 
democratization in Hong Kong upon its own control in the 
mainland, how much more allergic will it be to reopening the 
issue of Tiananmen?
    So, I do not think that Premier Wen meant to signal any 
soft line on the part of the government. He, himself, was 
alluded to before as an official who came to Tiananmen Square 
with Zhao Ziyang in 1989. He was then Zhao Ziyang's chief aide. 
His personal views on Tiananmen probably contain some 
reservation toward the crackdown, but that is very different 
from a policy that the Party might adopt.
    Chairman Leach. Ms. Hom.
    Ms. Hom. I think the question of how to read the tone and 
the words is almost like reading tea leaves, and it is a very 
difficult exercise.
    I should just add, by way of a biographic footnote, Mr. 
Chairman, I am Hong Kong Chinese by birth, so I am more than a 
little bit alarmed by the developments in my former--I was a 
British subject, and now I am a U.S. citizen. I also spent 
about 18 years living, working, and doing legal training in 
China, so my comments, apropos the rule of law and the 
initiatives and the training, really come from very much of a 
respect for the complexity and the difficulty of building the 
infrastructure in country.
    And why I am now retired and doing the work that I do with 
Human Rights in China is because I believe we have hit the 
ceiling in terms of what can be done in terms of exchange work, 
and that we need the pressure from the outside and the 
international community. We need now to push the Chinese 
Government, because the ``H'' word, ``human rights'' is not a 
word that even the exchange programs want to raise or fund 
explicitly, but we can raise it as human rights activists.
    The second thing is that I think the question about tone--
this is not to answer the question, but to say, here is another 
indication. Human Rights in China, our organization, has on our 
board many people whom you might be familiar with, who are 
leaders and were on the Most Wanted list, such as Wang Dan. Our 
co-chair is Fang Lizhi. The president of our organization is 
Liu Qing, who served 11 years in a Chinese prison.
    We have been referred to in the past, quite publicly, in 
U.N. records and other public records as ``enemies,'' as an 
``enemy organization,'' in very strong, apoplectic ways. Most 
recently, in the decision with respect to the lawyer Zhang 
Enchong, we were referred to over a dozen times in the court 
decision, our full name, and we were not then followed by a 
description of us an ``enemy, hostile organization.'' We were 
simply described, in the legal language of the law, as a 
``foreign entity.'' ``Haiwai de zuzhi.'' So we read that as not 
great progress, because many of our staff and board--including 
Dr. Nathan--still cannot get visas into China. But we do think 
that that does indicate a slight improvement, in terms of tone, 
toward us.
    The other thing I just wanted to add, if I may, is that the 
question where Dr. Nathan and I might have a slightly different 
read, in terms of the support for the policies of this present 
Chinese administration, the middle class, as strong and 
powerful as it is, is only a minority. China cannot be stable 
without dealing with the other 96 percent of the population 
when we are talking about 1.3 billion people.
    The second thing is, we have to very carefully approach any 
assertions that this is popular sentiment or that this is what 
people think, one, because the nature of gathering information 
is different. Polling is not what happens there, and 
information on public sentiment is very dangerous and 
expressing those opinions is also very dangerous. That must be 
viewed, any public sentiment or polls, within the context of 
the government's very strict control of information and 
censorship of dissident views. Thank you.
    Chairman Leach. Well, thank you.
    Just let me say in conclusion, we all recognize that when 
you are dealing with another society there are limits to what 
you can do. Certainly in terms of force, it is an option off 
the table, so there is no such a thing as a desire for forceful 
intervention in Chinese affairs. But there is a desire to 
express one's views and to suggest the kinds of things that 
would make relations better between peoples and within 
societies.
    In that context, to borrow from an American speech, I think 
we all have a dream that maybe some day there will be ladders 
in Tiananmen Square, and soap boxes, and that would be a 
wonderful symbol for Chinese society, as well as, I think, a 
benchmark for bettering relations in the world.
    Mr. Levin.
    Representative Levin. Thank you. This has been a useful 
hearing. Your questions, I think, have covered much, maybe all, 
of the useful territory.
    So let me just say, you are right, Mr. Chairman, that force 
is not something that should be even discussed, and that makes 
it all the more important that we use other means to try to 
help effectuate change.
    Whether Dr. Nathan is right or wrong exactly in terms of 
his analysis, and I think he is probably more right than wrong 
I do think--and Ms. Hom, this picks up what you had to say and 
what our two witnesses who were there more recently have been 
saying--that is, that if people talk about the inevitability of 
democracy in China, it may slow down efforts to promote it. I 
mean, if something is inevitable, just stand by and let it 
happen.
    I think the hearing today sends a very clear message, and 
that is, we really should not rely on inevitability. If we are 
going to increasingly develop a sound relationship with China 
in all respects, we have an interest in trying to promote human 
rights and democracy in China. If we do not, it will be bad for 
the people of China and it will be bad for our relationship.
    So, Mr. Chairman, I am glad we have held this hearing. I 
know that today we are preparing to leave town and a lot of 
people are doing lots of other things, but I know that our 
staff will circulate the testimony so that all of the members 
who were not able to get here today will be able to gain the 
benefit of reading it.
    Thank you very much.
    Chairman Leach. Thank you, Mr. Levin.
    Let me thank all of you for your thoughtful testimony. We 
are very appreciative. We are also very respectful of the 
courage that has been demonstrated in the lives and activities 
of our panel.
    Thank you very much.
    [Whereupon, at 11:54 a.m. the hearing was concluded.]


                            A P P E N D I X

=======================================================================


                          Prepared Statements

                              ----------                              


               Prepared Statement of Randall G. Schriver

                              JUNE 3, 2004

    Mr. Chairman, thank you. I appreciate the opportunity to appear 
before the Commission today on this, the 15th anniversary of the 
Tiananmen Square crackdown.
    Anniversaries are a good time to look back and reflect on what has 
happened in a relationship in the intervening years. And it is a good 
time to look forward as well, to examine where we are going and how we 
can get there in a way that best meets our national interest and 
enhances peace and prosperity in the region and the world.
    The tragedy of Tiananmen 15 years ago still casts a long shadow in 
China today.
    You see it in the continuing scrutiny of people gathered in groups 
of three or more by a very noticeable security presence in the Square.
    You experience it in the continuing heartbreak of the mothers of 
Tiananmen victims who ask the government for an accounting of their 
children who have been missing since 1989--and get detained for their 
efforts.
    You hear about it in conversations about the impact Tiananmen has 
had on the inability of Beijing to find creative ways to increase 
popular participation in national governance.
    It remains an event, as former Ambassador to China Jim Lilley wrote 
in his recent book ``China Hands,'' quoting a Chinese professor, ``when 
even the Heavens were saddened.''
    Fifteen years on, China needs to reexamine Tiananmen. This 
reconsideration is long overdue. When it does come, I believe it will 
usher in a period of ferment and serious discussion about whither 
China's government, a discussion that will be similar in tone and as 
far-reaching and significant as the verdict on Mao Zedong which ended 
the Cultural Revolution more than a quarter century ago.
    So while China today is a vastly different, vastly more confident, 
vastly more influential, and vastly more prosperous nation than it was 
15 years ago, Tiananmen--as an epochal event in China's modern history 
and in the memory of those who lived through it--continues to resonate. 
Tiananmen will not become ``history'' in the sense of becoming a part 
of the past until the present leadership deals--with honesty and 
candor--with the tragedy of 1989. Former Party Secretary and Premier 
Zhao Ziyang may have gone to Tiananmen Square, in his words, ``too 
late'' in May 1989 to influence the ultimate course of events, but it 
is not too late for those in power today, some of whom were with Zhao 
on that fateful day, to take the steps necessary to come to terms with 
the past and begin to move forward to a better future for China.
    For our part, we continue to engage the Chinese leadership and 
public on key issues that were implicitly part of the foundation of the 
popular protest in Tiananmen: the right of people to participate in 
government decisions that affect their lives, to have a say in who 
leads them, to live in a nation governed by law and not men, to speak 
and write freely, to worship and believe in a manner of their choosing, 
and to be given a fair and impartial trial with legal representation.
    Our commitment to engage China on these issues in the years since 
Tiananmen is well reflected in the State Department's May 17 report to 
Congress on ``Supporting Human Rights and Democracy: The U.S. Record 
2003-2004.'' As the President said in a speech the same day to the 
National Endowment for Democracy, there will come a day when ``China's 
leaders will discover that freedom is indivisible--that social and 
religious freedom is also essential to national greatness and national 
dignity. Eventually, men and women who are allowed to control their own 
wealth will insist on controlling their own lives and their own 
country.''
    My hope is that will translate into a China whose future greatness 
will be predicated on its commitment to extending and strengthening the 
rights of its people.
    Let me briefly summarize what the Administration has done in the 
past year alone to encourage the advance of these rights:

<bullet>  U.S. officials--in Washington, China, Geneva, and elsewhere--
    publicly and privately highlighted the need for improvements in 
    human rights conditions, called for the release of prisoners of 
    conscience, and, in recent days, protested detentions of those, 
    like HIV/AIDS activist Hu Jia, who have sought to hold the Chinese 
    authorities accountable for the treatment of those who live with 
    this dread disease.
<bullet> We have engaged in a wide-ranging bilateral Human Rights 
    Dialogue with China, which yielded some promising commitments in 
    2002. Regrettably the Chinese failed to move forward with their 
    promises, especially those relating to visits by the U.N. Special 
    Rapporteurs for Torture and Religious Intolerance, the U.N. Working 
    Group on Arbitrary Detention and the U.S. Commission on 
    International Religious Freedom, and we ended up introducing a 
    resolution at the U.N. Commission on Human Rights in Geneva this 
    year. We are hopeful that we can restart soon--and see results 
    from--the kind of high-level dialog that will move China toward 
    reforms that will make a resolution in Geneva in 2005 unnecessary.
<bullet> We have a Resident Legal Advisor in China who organizes events 
    promoting the rule of law and who speaks regularly about fairness 
    in criminal procedures and about the importance of training a new 
    generation of judges and lawyers who will mete out justice 
    impartially.
<bullet> We are working in China with NGOs and Chinese entities to 
    reform the judicial system, improve transparency in governance, 
    protect worker and women's rights, promote best practices and 
    combat corruption, and strengthen civil society.

    Let me elaborate a bit more on these projects. In September, we 
sponsored a seminar attended by more than 150 Chinese judges, 
prosecutors and defense attorneys on problems of criminal defense. The 
U.S. Embassy also awards small grants to members of China's NGO 
movement in support of democratic values and in 2003, the U.S. funded 
13 projects with diverse purposes, including teaching U.S. law at a 
Chinese university and supporting environmental and health care 
advocacy NGOs. This coming year, we will fund capacity building 
projects for NGOs in Shanghai, social security rights for the rural 
aged, labor rights protection for migrant workers and NGO-mediated 
public participation in environmental governance.
    We are also promoting China's compliance with international labor 
standards. Through the Partnership to Eliminate Sweatshops Program, a 
State Department project designed specifically to address unacceptable 
working conditions in manufacturing facilities that produce for the 
U.S. market, we are funding the work of four non-governmental 
organizations in China. These groups will develop programs to build 
local capacity to ensure compliance with labor standards, promote labor 
rights awareness in the Chinese business community, and develop 
advanced training materials which are suitable for use in individual 
factories.
    These are wide-ranging strategies, programs and commitments and 
they grow out of our awareness, as the President said to the National 
Endowment for Democracy, that the calling of our country is to advance 
freedom, our duty is to support the allies of freedom and liberty 
everywhere, and our obligation is to help others create the Kind of 
society that protects the rights of the individual.
    As I said in my statement before the Commission on July 24 last 
year, we will continue to call for China to make the right choices and 
to understand clearly that issues affecting the dignity of men and 
women will not go away. As long as we continue to have concerns about 
human rights and religious freedom, and as long as China is unable or 
unwilling to address them, we will not realize the full flowering of 
the U.S.-China relationship.
    I'd also like to say a few words about America's engagement with 
China in other areas apart from human rights and democracy, important 
as those matters are and how they define who we are as a people and the 
values we share.
    Our relationship with a rapidly changing and dynamic China is, as 
the Secretary has said, too complex to contain in a single sound bite. 
But we are committed to building the kind of relationship that will 
promote a broad range of U.S. interests. The Administration has 
welcomed the emergence of a strong, peaceful, and prosperous China 
which rises up to meet the challenge of its global responsibilities, 
whether at the United Nations, in the World Trade Organization, in 
meetings of the Asia-Pacific Economic Cooperation group or as a part of 
a non-proliferation group like the Nuclear Suppliers Group.
    For the most part, on a wide variety of issues, including North 
Korea and counterterrorism, trade and non-proliferation, we have had 
the kind of discussion that advances a common agenda based on mutual 
interests. Rather than go over those matters again, I would be pleased 
to discuss them further in response to questions you might have.
    However, a few comments about America's interest in and 
relationship with Taiwan and Hong Kong would be appropriate before I 
close.
    First, Taiwan. The Administration welcomed the responsible and 
constructive tone struck by President Chen Shui-bian in his May 20 
inaugural address. We hope that his message--especially on Taiwan's 
willingness to engage across-the-board on cross-Strait issues, not 
excluding any possible formula for creating an environment based on 
``peaceful development and freedom of choice''--will be greeted 
positively by the PRC and taken as a basis for dialog, which can lead 
to the peaceful resolution of outstanding differences. I also note that 
despite some harsh rhetoric in 
China's May 17 statement on Taiwan--particularly the harmful references 
to the potential for the use of force--there may be some constructive 
elements on which the two sides can build.
    As the President has said numerous times, we will continue to honor 
our obligations under the three U.S.-PRC communiques and the Taiwan 
Relations Act; there has been no change to our ``one China'' policy. It 
is also our intent, as Assistant Secretary James Kelly said at an April 
27 hearing of the House International Relations Committee, to support 
and enhance the policy of seven Presidents to maintain peace and 
stability in the Western Pacific while helping to ensure Taiwan's 
prosperity and security. But, again, in the final analysis, the Taiwan 
issue is for people on both sides of the Strait to resolve in a way 
acceptable to each, without the use of force and without seeking to 
impose unilateral changes in the status quo.
    As for Hong Kong, we are supportive of the principle, as expressed 
many times by the Chinese themselves, that the people of Hong Kong 
should govern Hong Kong. The United States has been very clear: our 
longstanding policy is that Hong Kong should move toward greater 
democratization and universal suffrage. The Chinese also have 
reaffirmed this, most recently by Premier Wen Jiabao in his European 
sojourn last month. However, on April 26 this year, the Standing 
Committee of National People's Congress in Beijing stated that there 
would--for the time being--not be any changes in the electoral methods 
to select the Chief Executive in 2007 and the Legislative Council in 
2008, a move that inhibits the pace of democratization.
    Beijing and the Hong Kong Government should take steps to ensure 
sustained movement toward a government that truly represents the people 
of Hong Kong. 
Ultimately the pace and scope of political evolution in Hong Kong 
should be determined by the people of Hong Kong themselves. It is 
important that China understand our strong interest in the preservation 
of Hong Kong's current freedoms, as well as our interest in the 
continued democratization of Hong Kong as called for in the Basic Law. 
U.S.-China relations will suffer if the cause of freedom and democracy 
suffers in Hong Kong. None of us--in Hong Kong, in Beijing, in 
Washington or elsewhere--would benefit from such an outcome. We will be 
very clear, I assure you, of what we expect.
    To get back to the theme of today's hearing, let me close my 
statement this morning with an observation that Secretary Powell made 
at the Bush Presidential Library in College Station, Texas, on November 
5 last year. It remains true today.
    ``Only by allowing the Chinese people to think, speak, assemble and 
worship very, very freely, only then will China fully unleash the 
talents of its citizens and reach its full potential as a member of the 
international community. . . . For our part, America hopes to work with 
China to help the Chinese people achieve their dreams, their hopes, 
their aspirations for a better life for their children.''
    By dealing with the aspirations of those who assembled in Tiananmen 
fifteen years ago, I am confident that China can begin to realize the 
potential the Secretary talked about. In the process, it can meet the 
highest hopes of Chinese--and Americans--for a better world.
    Thank you very much. I look forward to your comments and questions.
                                 ______
                                 

                   Prepared Statement of Wang Youcai

                              JUNE 3, 2004

    First, I want to express my appreciation to the Committee for all 
your help in getting me released from prison. I am very glad to be here 
today to share my experiences and express my opinions about China's 
future democracy. In order not to waste your time, I will summarize the 
following points.
    1. It is very important that democratic people and democratic 
governments help promote a successful transition from dictatorship to 
constitutional democracy in China. The American people and American 
government can play a great role in promoting China's democracy. It can 
be done in two ways. On the one hand, the American government can exert 
pressure on the Chinese authorities on the issue of human rights; on 
the other hand, the executive branch of the U.S. Government and members 
of the U.S. Congress should increase contacts with members of the 
Chinese government, the National People's Congress and the Chinese 
Communist Party. The American people can assist in building a civil 
society in China, particularly in supporting the Chinese opposition 
movement and the China Democracy Party. Contacts with the American 
government and people as well as with members of the European Union 
will make it more difficult for the Chinese government to crack down on 
efforts to build an opposition party in China and will help China build 
a constitutional democracy.
    2. It is also very important that the efforts to promote democracy 
come from within China. This can be done in a number of ways, such as 
promoting research and setting up information centers in China on the 
development of democratic societies and multiparty political systems. 
Overseas foundations and academic institutions can help to support 
colleagues in China in these activities.
    3. For those working to develop democratic institutions to China, 
it is important that the people who oppose constitutional democracy in 
China be condemned, and that the people, who support and work for 
democracy, in China be recognized. It is also important to help those 
trying to institutionalize civil society and strengthen the democratic 
forces in China. Of course, it is most important to isolate and condemn 
the people who promote dictatorship in the CCP while at the same time, 
avoiding sharp conflicts in the furthering of democracy.
    4. As Chinese citizens fight for their civil and political rights, 
they should learn how to organize themselves in non-governmental 
organizations, which bring about the pluralization of society, and 
institutionalize democratic procedures and the rule of law so that 
Chinese society will be compatible with democratic changes.
    5. As an opposition party, the China Democracy Party (CDP) focuses 
on grassroots election practices, encourages associations for peasants, 
workers, intellectuals, and private entrepreneurs and CDP candidates to 
participate in elections, and work to carry out fair elections from the 
grass-roots to higher political levels. In this respect, international 
help and pressure is especially needed. With the improvement in 
election procedures, China is definitely taking a step in the right 
direction toward a constitutional democracy. While this kind of 
transition will proceed slowly at the beginning, as experience 
accumulates, it will proceed more quickly. Unless China makes the 
transition from dictatorship to liberal democracy with 
institutionalized electoral procedures, non-governmental organizations, 
a new constitution that will truly protect human rights, limitations on 
government power with checks and balances, and a Federal system in the 
near future, the Chinese people may pay an intolerable price in 
attempts to overthrow the CCP regime. Such a happening will be very 
dangerous to the people of the entire world as well as to China. 
Therefore, I hope the American government will help and support the 
growth of a reasonable opposition party so that China can follow a path 
similar to that of South Korea or Taiwan. As the China Democracy Party 
is strengthened, it can help to introduce modern liberal democracy in 
China.
    6. Because China is such a big country with a huge population, the 
continuation of the political dictatorship will be dangerous not only 
for the Chinese people, but for the entire world. If China can become a 
liberal democracy, the present political map of the world will be 
greatly changed. This will also be beneficial to the United States. 
Furthermore, the disruption of a political transition can be relatively 
low if the transition is gradual and is kept under control. Such a 
transition is possible 
because many Chinese people are sympathetic to the promotion of a 
peaceful transition in China.
    7. I hope that the American people and the American government will 
provide more help to make Chinese democracy a reality. The Committee 
can play an important role in China's transition from a dictatorship to 
a constitutional democracy.
    Thank you very much.
                                 ______
                                 

                    Prepared Statement of Sharon Hom

                              JUNE 3, 2004

    Mr. Chairman, members of the Commission, on behalf of Human Rights 
in China (HRIC), thank you for this opportunity to make this statement. 
It is also an honor to testify today alongside of activists and leaders 
from the 1989 Democracy Movement.
    HRIC is an international, non-governmental organization founded by 
Chinese scientists and scholars in March 1989. Our mission is to 
promote universally recognized human rights and advance the 
institutional protection of these rights as one of the fundamental 
parameters of China's social and political transformation. Through our 
advocacy on behalf of over 2,000 political prisoners over the past 15 
years, our research and education, HRIC aims to measure, monitor, and 
promote the implementation of human rights in China. Our work is 
informed and inspired by our fundamental belief that democracy is both 
possible--and inevitable--in China.

                             TIANANMEN 1989

    Fifteen years ago, the Chinese government ordered the violent use 
of military force to suppress a peaceful protest movement.\1\ Over a 
period of 2 months in the spring of 1989, in China's major cities, 
students, workers, and activists called for democratic reforms and the 
end to escalating official corruption and abuses. The center of the 
protest movement was Tiananmen Square in Beijing, where tens of 
thousands of students camped out to press their demands, and where more 
than one million people marched carrying banners and shouting slogans. 
On the night of June 3, 1989, the government ordered the People's 
Liberation Army (PLA) to clear the Square and restore order. PLA troops 
moved into Beijing and clashed with civilians trying to block their way 
to Tiananmen Square. In the early hours of June 4th, the troops moved 
into the Square and opened fire on unarmed students and civilians in 
the surrounding area.
---------------------------------------------------------------------------
    \1\ See Tiananmen: The Once and Future China, China Rights Forum, 
No.2, 2004.
---------------------------------------------------------------------------
    It is believed that more than 2,000 people died in various Chinese 
cities on June 3rd and 4th and the days immediately following. The 
Tiananmen Mothers have documented the names of at least 182 victims, 
including three who died at Tiananmen Square. Following June 4th, more 
than 500 people were imprisoned in Beijing's No. 2 prison alone, and an 
unknown number were imprisoned in other Chinese cities. An additional 
unknown number were executed. Some 130 people are believed to remain in 
prison serving long terms for crimes connected with the 1989 protests. 
However, the total accurate number of dead, wounded, imprisoned and 
executed remains unknown.
    Fifteen years later, why is this is still the case?
    First, the Chinese government, despite whatever internal debates 
are going on, refuses to engage in a public reassessment of the 
crackdown. However, Chinese history demonstrates that an assessment is 
also possible, e.g. the Anti-Rightist Campaign and after the Cultural 
Revolution. Second, China's pervasive legal, regulatory, security and 
police control over ``sensitive'' political issues and events ensures 
that the costs of writing, publishing, or investigating June 4th events 
will be high--and include facing endangering State security or leaking 
State secrets criminal charges, and imprisonment.\2\ Third, China's 
growing economic power and role has contributed to the sidelining of 
human rights by the international community when they conflict with 
trade, military, or other geo-political interests and priorities. 
Fourth, the opportunistic invocation of the post-September 11 war 
against terrorism by the Chinese government has allowed it to crackdown 
on peaceful assertions of religious and cultural identity in the name 
of fighting terrorism.
---------------------------------------------------------------------------
    \2\ For identification of some individuals sentenced to prison 
terms of 15 years to life for activities related to 1989 Democracy 
Movement, See In Custody: People imprisoned for Counter-
revolutionary and State security crimes, China Rights Forum, No. 2, 
2003, pp.88-91.
---------------------------------------------------------------------------
    Today--the ``No Deaths in the Square'' proclamation in the People's 
Daily on September 19, 1989 and the label of counterrevolutionary 
rebellion on the 1989 Democracy Movement remains--a bloody stain on the 
legitimacy of any official claims to progress.

                          FIFTEEN YEARS LATER

    Over the past 15 years, the Tiananmen Mothers, along with HRIC and 
many other groups and individuals, have repeatedly called for an 
independent investigation into the June 4th crack-down, a thorough 
official accounting of the dead, injured and disappeared, appropriate 
redress and compensation for surviving victims and families of the 
dead, and accountability on the part of the officials who ordered the 
crackdown.
    Dr. Jiang Yanyong who had spoken out during the SARS crisis last 
year, once again came forward and called for an official reassessment 
of the 1989 Democracy Movement and the June 4th crack-down. In reply to 
a question posed by a foreign journalist during the NPC and CPPCC 
sessions in this past March, Chinese Premier Wen Jiabao stated: ``We 
must concentrate all our time, energy and efforts on the development of 
our country . . . If China could have another 20 to 50 years of 
stability, our country would surely emerge stronger than ever before.''
    This assertion of the primacy of stability--that is, stability as 
synonymous with the survival of the supremacy of the Party at all 
costs--is a sobering echo of the statement attributed to Deng Xiaoping 
15 years ago about the necessity to: ``Kill 200,000 for 20 years of 
stability.''
    In their open letter to Chinese compatriots inside and outside 
China, the Tiananmen Mothers ask:

          ``Is this to say that if no one had been killed, we would not 
        have today's political stability? If no one had been killed, we 
        would not have today's economic miracle? If no one had been 
        killed, we would not enjoy the status today and in the future 
        of a world power? Over the past 15 years, nearly every leader 
        in the Party and the government, almost without exception, has 
        defended the suppression in 1989 with the ``enormous 
        accomplishments'' of the subsequent years. In that case, we 
        must now in equally clear and unequivocal terms tell these 
        leaders: The massacre that took place in the Chinese capital in 
        1989 was a crime against the people, and a crime against 
        humanity. This massacre not only seriously violated the 
        Constitution of this country and the international obligations 
        of a sovereign state, but also transformed a habitual disdain 
        for human and civil rights into an unprecedented act of 
        violence against humanity.'' \3\
---------------------------------------------------------------------------
    \3\ Open letter from the Tiananmen Mothers letter, available on the 
HRIC website <http://iso.hrichina.org/iso/>
---------------------------------------------------------------------------
                    IS DEMOCRACY IN CHINA'S FUTURE?

    The future of democracy in China is interrelated to the promotion 
of human rights and a rule of law that is transparent, fair, and a 
judiciary and process independent of the Party. Although there have 
been areas of improvement--increased average living standards, access 
to information, greater government participation in the international 
human rights regime--the human rights situation is generally worsening 
in other respects for the vast majority of China's people.
    As well documented by the World Bank, UNDP, Chinese researchers,\4\ 
human rights NGOs, including HRIC, and reported by this Commission and 
the U.S. State Department country reports on China, the human rights 
situation has overall deteriorated seriously and is marked by growing 
social inequalities and poverty;\5\ massive unemployment; and 
environmental degradation reaching crisis dimensions; 
severe restrictions on freedom of expression, including crack-downs on 
ethnic minorities, religious groups (Falun Gong, underground churches), 
independent political parties or unions, independent media; use of 
torture and mistreatment of prisoners, arbitrary detentions and 
arrests. Lawyers taking on cases that are politically sensitive may 
find themselves intimidated or themselves the target of prosecution.\6\
---------------------------------------------------------------------------
    \4\ Chinese Academy of Social Sciences report released February 26, 
2004.
    \5\ Official numbers pace those living at absolute poverty at 30 
million, while the World Bank estimates the number to be between 100-
150 million persons.
    \6\ According to the officials at the All China lawyers 
Association, more than 100 defense attorneys have been arrested for the 
on the alleged charge of making false statements in court. For example, 
Xu Jian was arrested in 1999 and sentenced to 4 years imprisonment in 
2000 for ``incitement to overthrow State power'' because he had 
provided legal counselling to the workers at his office and via its 
hotline. Zheng Enchong provided legal advice and assistance to several 
hundred Shanghai families affected by redevelopment projects. He was 
sentenced to three years in prison on October 28, 2003 for ``illegally 
providing State secrets to entities outside China.'' On December 18, 
2003, the appeals court denied Zheng Enchong's appeal and affirmed the 
sentence, sending a chilling message to Chinese lawyers.
---------------------------------------------------------------------------
    Today, 15 years after Tiananmen, facing increasing labor and social 
unrest, China is not more stable nor can it claim sustainable progress 
in equitable economic development. True social stability requires as 
fundamental conditions--protection of human rights, democracy, and a 
rule of law. The order that is maintained in the absence of these 
conditions is in fact just social repression and control.

                    DEMOCRACY IS INEVITABLE IN CHINA

    Chinese democracy can only develop and be realized within a vibrant 
civil society, not a limited ``non-critical realm'' where any views 
contrary to the Party are silenced. Whatever direction the current 
ideological debates within China's leadership takes about political 
reforms (or not), the Chinese government can not legitimately claim 
that it alone can define democracy, even ``socialist democracy,'' as 
only what it will allow; or that progress is measured predominantly by 
the interests of economic and political elites; or that elections, such 
as for Hong Kong's LegCo, will be permitted but only if the results are 
what it approves.\7\
---------------------------------------------------------------------------
    \7\ LegCo: Hong Kong's 60-seat Legislative Council. Elections will 
take place in September, with the number of directly elected seats 
increased to 30.
---------------------------------------------------------------------------
    Yet democracy is inevitable because the aspirations, hopes, and the 
willingness to struggle for a more open and democratic China are still 
powerfully present and alive--against all odds. Despite the brutal 
invocation of military violence in 1989 to crush the democracy 
movement; a pervasive and powerful Chinese propaganda, police, and 
security apparatus; China's growing global economic power (that China 
manipulates to undermine scrutiny and accountability for its human 
rights record); and a privileged and powerful Chinese elite bought off 
by economic and political benefits of supporting the present policies; 
despite all this--courageous Chinese--the Tiananmen Mothers, 
journalists, intellectuals, peasants, workers, students, Internet 
activists, religious practitioners, lawyers, artists, and poets, 
continue to write, to speak out, to organize mass demonstrations, form 
independent political parties, independent unions, to petition the 
government, and to appeal to international fora for redress and 
support.
    We can support these human rights and democracy activists, these 
ordinary citizens claiming justice and freedom, by remembering the 
past, by not allowing the Chinese authorities' control over information 
and censorship to result in historical amnesia. Like the call from the 
Tiananmen Mothers, the names of those who were killed, the sacrifices 
made must not be forgotten.\8\ The Chinese government certainly has not 
forgotten and its actions in suppressing independent voices reflect a 
government still fearful and distrustful of its own people. In an 
effort to head off anniversary memorials and possible demonstrations, 
the Chinese authorities have cutoff phone lines, put under house arrest 
and close surveillance leading activists and intellectuals, including 
Liu Xiaobo, Ren Wanding, AIDS activist Hu Jia, and Tiananmen Mothers 
leaders Ding Zilin, Zhang Xianling, and Yin Min.
---------------------------------------------------------------------------
    \8\ The June 4th Memorial Global Coalition, of which HRIC is a 
member, is organizing a candlelight vigil on June 4th in front of the 
Chinese Consulate in New York City from 7-10 p.m. For full details of 
June 4th memorial activities taking place around the world, please 
visit the Web site of the June 4th Memorial Global Coalition: http://
www.global64.com/. To support the Tiananmen Mothers, see the Fill the 
Square Petition at HRIC's website <http:iso.hrichina.org>
---------------------------------------------------------------------------
                            RECOMMENDATIONS

    As part of its bilateral process with China and as part of 
multilateral processes such as the U.N. and the WTO, the U.S. 
Government should:

<bullet> continue to exert its influence with China by raising human 
    rights issues and cases,
<bullet> support more coherent and rational implementation of 
    international obligations, including trade obligations as they 
    impact on human rights,
<bullet> in any technical assistance or exchange initiatives, build in 
    a human rights assessment, and
<bullet> continue its critical support for civil society and democracy 
    groups inside and outside China.

    In the negotiations on behalf of individual political prisoner 
case, we also respectfully suggest that exiling dissident voices is not 
a sign of progress and does not contribute to the systemic reforms 
necessary for the advancement of democracy and human rights. Individual 
political prisoners should be released without conditions on their 
peaceful exercise of their rights, and be allowed to remain within 
their own country. That would be the true litmus test for democracy in 
China.
    Thank you.
                                 ______
                                 

                 Prepared Statement of Andrew J. Nathan

                              JUNE 3, 2004

    Thank you for the opportunity to testify on the impact of Tiananmen 
on China's future.
    Regime theory holds that authoritarian regimes are inherently 
fragile because of weak legitimacy, over-reliance on coercion, over-
centralization of decisionmaking, and the predominance of personal 
power over institutional norms. This authoritarian regime, however, has 
proven resilient.
    After the Tiananmen crisis in June 1989, many observers thought the 
Chinese communist regime would collapse. Instead, it brought inflation 
under control, restarted economic growth, expanded foreign trade, and 
increased its absorption of foreign direct investment. It restored 
normal relations with the G-7 countries that had imposed sanctions, 
resumed the exchange of summits with the United States, presided over 
the retrocession of Hong Kong to Chinese sovereignty, and won the right 
to hold the 2008 Olympics in Beijing. It arrested or exiled political 
dissidents, crushed the fledgling China Democratic Party, and seems to 
have largely suppressed Falungong.
    We have not seen fundamental improvements in civil and political 
rights since 1989. Human rights is a multidimensional phenomenon. Some 
human rights in China have improved thanks to the growth of the 
economy--for example, fewer people are living in poverty. Some human 
rights have retrogressed due to the breakdown of socialist 
institutions--for example, subsidized medical care is no longer 
available in the rural areas. But in the area of civil and political 
rights which most people think of when they think of human rights, 
there has been essentially no change since 1989. The regime continues 
to deny people the right to organize politically, and decisively 
crushes any political or religious movement that challenges its hold on 
power.
    In my judgment, the Chinese government is not engaged in a gradual 
process of political reform intended to bring about democracy. Rather, 
the political reforms that we see--the use of village elections, 
greater roles for the local and national people's congresses, wider 
leeway for media reporting, the administrative litigation system--are 
aimed at improving the Party's legitimacy without allowing any 
opposition to take shape.
    The causes of authoritarian resilience are complex. They include:

<bullet> Economic growth and constantly rising standards of living.
<bullet> Achievements in the foreign policy realm which give the 
    government prestige among the people.
<bullet> Building of channels of demand- and complaint-making for the 
    population, such as the courts, media, local elections, media, and 
    letters-and-visits departments, which give people the feeling that 
    there are ways to seek relief from administrative injustices. These 
    institutions encourage individual rather than group-based inputs, 
    and they focus complaints against specific local level agencies or 
    officials, without making possible attacks on the regime. Thus they 
    enable citizens to pursue grievances in ways that present no threat 
    to the regime as a whole.
<bullet> A constant and visible campaign against corruption, which has 
    sent the signal that the Party as an institution opposes 
    corruption.
<bullet> Increasingly norm-bound succession politics and increased use 
    of meritocratic as contrasted to factional considerations in the 
    promotion of political elites.
<bullet> The Party has coopted elites by offering Party membership to 
    able persons in all walks of life and by granting informal 
    property-rights protection to private entrepreneurs. It has thus 
    successfully constructed an alliance between the Party and the 
    class of rising entrepreneurs, pre-empting middle-class pressure 
    which elsewhere has contributed to democratization.
<bullet> Maintenance of unity on core policy issues within the Party 
    elite, so there is no sign of a serious split that would trigger a 
    protest movement.
<bullet> Resolute repression of opposition activity has sent the signal 
    that such activity is futile. There is no organized alternative to 
    the regime thanks to the success of political repression.

    While these developments do not guarantee that the regime can solve 
all the challenges that face it, they caution against arguing too 
hastily that it cannot adapt and survive. In contrast with the Soviet 
and Eastern European ruling groups in the late 1980s and early 1990s, 
the new Chinese leaders do not feel that their model of rule has 
failed. To be sure, since the Mao period the Chinese Communist regime 
has changed greatly. It has abandoned utopian ideology and charismatic 
styles of leadership, empowered a technocratic elite, introduced 
bureaucratic regularization, complexity, and specialization, and 
reduced control over private speech and action. But it has been able to 
do all these things without triggering a transition to democracy.
    Although such a transition might still lie somewhere in the future, 
the experience of the past two decades suggests that it is not 
inevitable. Under conditions that elsewhere have led to democratic 
transition, China has made a transition instead from totalitarianism to 
a developmental authoritarian regime, one that has widespread popular 
legitimacy among its own people, that has gained the support of its own 
middle class, and that for now appears stable.
                                 ______
                                 

  Prepared Statement of Hon. James A. Leach, U.S. Representative From 
      Iowa, Chairman, Congressional-Executive Commission on China

                              JUNE 3, 2004

             Decentralized Democracy: A Model for China\1\

    In any discussion of the prospect of democratization of China we 
must begin with the basics.
---------------------------------------------------------------------------
    \1\ This statement was also presented at the Library of Congress 
Symposium held on May 6, 2004.
---------------------------------------------------------------------------
    At the root of the basics are theories of revolution, theories of 
the individual, theories of economics, and questions of the 
adaptability of abstract systems to the culture and heritage of people 
in varying circumstances.
    Here a footnote is in order. Whether our intervention in Iraq is 
proper or counterproductive, the legitimacy as well as the challenge of 
imposing democracy in a hostile environment is under review here and 
abroad. Last week the head of a Baghdad psychological institution 
visited my office and, in response to questions I posed, noted that the 
majority of Iraqis want a strong leader, but one they would have a hand 
in choosing; and a credible legislature, also based on citizen input; 
but they increasingly object to the word ``democracy'' because it is 
foreign derived. They want, like Americans, to be citizens with 
democratic rights and the power to control their government, but they 
aspire to establish a government compatible with their own unique 
social and religious heritage.
    If one assumes that abstract systems of government must fit 
historical frameworks and the accident of social challenges at given 
points in time, what is so interesting about China today is that the 
communist model, which convulsed the country for such an important part 
of the 20th Century, is so alien to China's heritage. While the 
radicalism implicit in Marxism-Leninism may have been useful in 
galvanizing nationalist sentiment as the Chinese people faced Japanese 
aggression during the Second World War, few theories either of 
revolution or governmental management have been more troubling for 
those who have experimented with them.
    It is my thesis that just as Americans would be wise to learn from 
older elements of Chinese civilization, particularly as we contend with 
modern problems of family break-down and urban violence, the Chinese 
might want to review the possibility that the decentralized American 
model of democratic government fits their society better than it fits 
smaller, more homogenous countries, including those in Europe.
    To bolster my thesis, I would like to dwell for a moment on the 
fundamentals of the American system.
    While communism is based on historical, particularly economic, 
determinism with a presumptive vanguard leading a class struggle, 
American revolutionary philosophy is premised on the empowerment of 
individuals endowed by a Creator with inalienable rights.
    Because Americans have a general aversion to radical thought and 
radical change--what Tocqueville described as a cultural penchant for 
moderation--we have a tendency to overlook one of the profoundest of 
political facts: that our philosophy not only provides the most 
adventuresome and humane model of political and economic organization 
in history, but it is also a more radical revolutionary model than that 
provided by Marxism-Leninism.
    In contrast with Marxism-Leninism, Jeffersonian democracy 
postulates change from the bottom up, not top down, and affirms an 
everlasting right of the people to revolt against governments which 
don't protect individual rights.
    In a Jeffersonian context it is revolutionary to assume that 
governments derive their power and legitimacy from--and only from--the 
consent of the governed. It is counterrevolutionary to hold that rights 
are artificial things granted and thus removable by law, one's own or 
anyone else's.
    I stress for a moment that the Jeffersonian model is more 
revolutionary than that provided by Marxist or extremist Muslim dogma 
because the hallmark of the right to revolt in natural rights theory is 
the establishment of constitutional democracies capable of channeling 
change without coercion. While during the Cultural Revolution Mao 
Zedong rationalized punitive acts by advancing a theory of permanent 
revolution, it is in individual rights centered systems that the 
permanence of revolution is ensconced. In an evolutionary way, ideas, 
people and movements are continually engaged because the right to 
revolt implicit in such documents as the Declaration of Independence 
and the Rights of Man provides a doctrine of empowerment to the people 
rather than to elitist leaders claiming the divine mantle of God, 
mandate of Heaven or the power to ride and interpret a crest of 
historical forces.
    By contrast, totalitarian creeds from fascism to communism may be 
rooted in an effort to revolt against an existent government, but once 
power is usurped from prior authorities the right of individuals to 
establish a basis for future revolutionary or evolutionary change 
ceases. Such theories of revolution which call for change at the top 
and then deny further changes become rationalizations for oppression 
rather than emancipation.
    America's founders were moral as well as political philosophers. 
They understood Locke's admonition that man was prone to excess and 
that, in fact, nothing was more dangerous than a good Prince. 
Inevitably some decisions of such a Prince would be mistaken and 
invariably a good Prince will be succeeded by a less good one who would 
have the benefit of accumulated, unchecked confidence and power. 
Accordingly, the founders embraced Montesquieu's separation-of-powers 
doctrine and established a limited, constitutional republic.
    Likewise, in contrast with the Marxist foundation of socialism, 
Jeffersonian democracy embraced Lockean property concepts. Emphasis was 
placed on individual rights and private property, rather than social 
obligations defined by others and government ownership of the means of 
production.
    Unlike Marx, who believed that religion was the ``opiate of the 
people,'' our country's founders held that ethical values, derived from 
religion, anteceded and 
anchored political institutions. It is the class struggle implications 
of Marxism--the exhortation to hate thy fellow citizen instead of love 
thine enemy--that stands in stark contrast with the demand of tolerance 
built into our Bill of Rights.
    From the American perspective, the real opiate of the 20th Century 
would appear to be intolerance, the instinct of hatred which becomes 
manifest in the individual and unleashed in society when governments 
fail to provide safeguards for individual rights and fail to erect 
civilizing institutions adaptable to change and accountable to the 
people.
    In America, process is our most important product. A great deal of 
emphasis is placed on the ``how'' rather than the ``what'' of policy, 
on the assumption that the public will not like all laws; therefore, to 
have respect for the law, people must have respect for the way a law is 
made. Otto von Bismarck joked that the public shouldn't be allowed to 
watch too closely either law or sausages being made, but the fact is 
that, if anything, openness is America's secret sauce. It is no 
accident that the first protections we established in our Bill of 
Rights were freedom of expression and freedom of the press so that 
public officials could be held accountable.
    As Jefferson, Locke's philosophical godson, observed: ``The basis 
of our government being the opinion of the people, the very first 
object should be to keep that right; and were it left to me to decide 
whether to have a government without newspapers or newspapers without a 
government, I should not hesitate to prefer the latter.''
    In America, we developed a system of separation of powers at the 
national level and purposeful tension between the Executive, 
Legislative, and Judicial branches; and then we decentralized power by 
quadruplicating the same separation-of-power arrangements at the state, 
county, and city levels. We established a system of courts, 
legislatures, and executive offices where there would not only be 
separations and tensions within but between levels of government. We 
have even been experimenting since the 1960s with skipping 
jurisdictions and providing federal funds 
directly to community groups operating poverty programs outside the 
formal framework of government institutions and, despite constitutional 
fences between secular and religious institutions, we have in recent 
years emphasized the utilization of faith-based organizations to 
administer government programs. Contracting out government functions, 
even those related to war, is becoming common.
    I stress these decentralized tensions because all societies have 
problems of accountability, of reconciling freedom with equality of 
opportunity. In America, the greed of a few is evident in periodic 
corporate excesses and, now and again, comes into play in politics. But 
while corporate scandals sometimes involve large sums of money, 
American political scandals are generally quite cheap. The egregious 
sums of money that slosh through the political system are manipulated 
by interest groups to advance the electoral ambitions of candidates, 
but they cannot be used to enrich the candidate himself. The 
decentralization of power in America has by and large kept government 
accountable to the people and allowed an incentive market system to 
operate with a minimum of conflicts of interest.
    Self-interest may not seem to be an attractive underpinning of 
moral philosophy, but history is demonstrating that a private incentive 
system effectively complements a political system based on individual 
rights, and vice-versa. As Mandeville in his 18th Century satire of 
capitalism, the poem Fable of the Bees, so poignantly noted: ``these 
are the blessings of the state, their crimes conspire to make us 
great.''
    I stress the issue of corruption because it is so morally and 
economically debilitating in any society. One of my favorite quotes at 
the time of the Tiananmen Square demonstrations came from a BBC 
interview with a student demonstrator. The interviewer asked the 
student what he and his fellow demonstrators hoped to achieve. 
``Democracy,'' the student said. He was then asked what ``democracy'' 
meant to him. ``No more corruption,'' he responded. He didn't define 
democracy as the right to vote or freedom of speech. Instead, he 
defined its effect: the power of people to constrain corruption.
    The problem of all citizens is to devise techniques to ensure that 
government becomes an honest broker of vested interests and, at the 
same time, helps lighten the load for those unable to help themselves.
    In the context of China, the economic reforms Deng Xiaoping 
initiated in the late 1970s have produced certain regional and other 
inequities, but also unprecedented economic dynamism.
    To harness this economic growth, China in the past quarter century, 
particularly the last decade, has undertaken a massive effort to revise 
its legal system. A new constitution was adopted in 1982 and it has 
already been amended four times. The Chinese government has enacted 
numerous laws laying out and formalizing the structure of the state, 
and creating comprehensive criminal, civil, and administrative 
procedures. In addition, the government has adopted commercial laws and 
regulations at every level, many specifically drafted to bring, or give 
the appearance of bringing, the country into compliance with the 
obligations of WTO membership.
    In international affairs, China has begun to wield influence in the 
Security Council and to assert its authority as a regional power, 
laying the groundwork for an expanded involvement on the Korean 
peninsula and in Southeast Asia, as well as the oil-rich but 
undeveloped Central Asian republics. But problems loom ahead that may 
yet undo some or all of the progress that has been made.

<bullet> Widespread factory closures and lay-offs in the state-owned 
    sector of the economy have left behind many unemployed workers, 
    while urban and rural evictions to make way for new construction 
    have created large groups of angry displaced residents, many of 
    whom flock to Beijing to complain.
<bullet> Although widely publicized, many of the new laws have proven 
    difficult or impossible to implement. In the area of international 
    trade, the Chinese intellectual property regime is still more 
    symbol than reality. In commercial and civil law, judgments are 
    often difficult to enforce. Labor laws related to health and 
    safety, overtime and payment of overdue wages, and laws forbidding 
    the levy of illegal fees are most often honored in the breach.
<bullet> Despite much anti-corruption legislation and the establishment 
    of multiple overlapping supervisory institutions, most citizens 
    have lost confidence in the honesty of Communist Party and 
    government officials.
<bullet> Environmental abuse has created threats to health and 
    prosperity, including severe air pollution, imminent insufficiency 
    of drinking water, and the irreversible loss of natural resources.
<bullet> An underfunded public health system cannot offer ordinary care 
    and is dangerously incapable of coping with the sudden health 
    crises in a globalized world.
<bullet> China's policy of seeking to press Beijing's norms on Hong 
    Kong and greater 
    authority over Taiwan are unacceptable to the populations 
    concerned, while the ``autonomy'' guaranteed by China's 
    nationalities laws is undercut by harsh state security policies.

    As the 21st century advances, the impact of these and other 
problems may lead to the Communist Party's loss of any legitimacy it 
ever had. This loss in turn might precipitate the worst nightmare for 
China's leaders: widespread unrest, possibly social and political 
chaos.
    Many in China are already aware of the growing gap between the 
winners and the losers in the new economy. The Party has recently 
invited some of the winners--the entrepreneurs, developers, 
professionals, and financiers--to join the Party as ``socialist 
builders.'' The jury is still out whether these new members can save 
the Party from irrelevance in a changing economy. To persuade 
prospective members that Party membership will mean real influence on 
policy and leadership, the Party has also been experimenting with 
``inner-Party democracy,'' with a goal of producing a higher general 
quality of leadership and perhaps greater accountability.
    The losers, however, seem to have become alienated from the Party. 
Farmers have organized themselves to resist unjust local government 
decisions, and evicted residents have adopted radical tactics to draw 
the state's attention to their complaints. The Chinese leadership in 
Beijing increasingly betrays a siege mentality in the face of the 
misery and anger that petitioners bring with them to the capital.
    In this context, the question is pondered in and outside China 
whether democracy can help the Chinese people resolve such enormous 
problems. Chinese political theory still depends on the borrowed 
Leninist model. In conformity with that model, China claims to have 
implemented ``democratic centralism,'' in which `the individual should 
be subordinated to the organization; the minority should be 
subordinated to the majority; the lower-level organ should be 
subordinated to the higher-level organ; the local authority should be 
subordinated to the central authority.'' The so-called ``democratic'' 
part of the model is defined as the ``mass line,'' which allows some 
upward movement of ideas from the people to the central leadership, but 
functions most powerfully in campaigns to publicize and enforce the 
center's decisions on the people. In a state built on this model, the 
individual is effectively reduced to a cipher, present only to be 
controlled, and the government remains more a source of, rather than 
cure for, social problems.
    The cure will depend on a simpler idea of decentralized democracy: 
one that gives each individual a public voice; one that provides for 
every individual's participation in the choice of officials and 
policies; and, just as important, one that empowers each individual 
openly to criticize the results and to change them.
    For basic democracy to work anywhere, citizens need a free flow of 
information, so that, for example, public health crises such as HIV/
AIDS or SARS can come to light without delay; so those injured by state 
officials or policies can safely speak out and organize to oppose them; 
and so that those harmed by corrupt or incompetent officials can blow 
the whistle and initiate procedures to remove them without fear of 
retribution.
    But in a huge country like China democracy can facilitate the 
resolution of actual and potential crises only if the government 
listens to its citizens and implements on a decentralized basis the 
solutions they demand.
    Democracy in any country means the legal empowerment of every 
individual. To try to get help from the State, the losers in the new 
economy now take advantage of China's extensive system of xinfang, 
meaning ``Letters and Petitions.'' The xinfang system is based on the 
establishment of special offices at every level of Chinese government. 
The offices are staffed by people with the duty to receive and resolve 
the questions brought before them. This system has deep roots both in 
early Chinese philosophy and in the history of China's imperial 
governments.
    In explaining how Heaven legitimizes a new ruler, the Warring 
States philosopher Mencius quotes from an early classic, The Book of 
Documents:

          ``Heaven sees with the eyes of its people.
          Heaven hears with the ears of its people.''

    Emperors attentive to Mencius' warning devised ways to remain 
legitimate by being open to the views and complaints of the populace. A 
colorful Tang dynasty practice involved the ligui, or ``Report 
Coffers,'' set out around the court in the four cardinal directions. In 
these coffers citizens placed requests for help, complaints of 
injustice, and criticisms of various kinds.
    To an American eye xinfang resembles a constituent services system. 
In China, however, the catch is that nobody really has to pay heed to 
the petitions that come in. In Iowa, by contrast, a constituent who 
contacts a Congressman's office and is ignored, or receives rude, 
dismissive treatment will make his or her displeasure known with a vote 
at the next election.
    The rising exasperation and desperation of petitioners in Beijing 
and the provincial capitals that have been reported in recent years 
reveals a populace ready for a more responsive government, one which 
provides legal and political ways to insist rights not be trampled.
    The capacity of citizens to insist on rectifying wrongs is a 
missing element of the current Chinese system. While the creation of 
structures to answer this demand is up to the Chinese people, it is 
instructive that xinfang petitioners are increasingly focusing on 
opening up the National People's Congress and asking that it encourage 
elections at all levels. The National People's Congress has sponsored a 
few pilot election projects at the lowest levels of political 
organization, but it is difficult to assess their value because there 
have been, to date, so few projects.
    This past March, just before the annual meeting of the National 
People's Congress, China's state news agency asked readers which issue 
they thought should take priority on the NPC agenda. More than 80 
percent of those responding said ``corruption.'' This high level of 
concern about corruption may reflect the shocking news that 13 top 
provincial officials were convicted of corruption, some cases involving 
amounts of money that in Chinese terms appear astronomically large. To 
get an idea of the significance of those cases, consider how Americans 
would react to the news that the governors or lieutenant governors of 
half of our states were felled by corruption scandals in a single year. 
This is one reason why most Chinese view the problem as more systemic 
than aberrational, and the attempts at accountability more superficial 
than comprehensive.
    Corruption was an important question to the magistrates of the Qin 
and Han dynasties, China's first unified imperial systems. One 
magistrate's grave from 188 B.C. contained a handbook of key cases 
distributed to local magistrates to instruct their handling of 
particular problems, including official misuse of public money, 
property, and servants.
    Recognizing that widespread corruption might undermine its 
legitimacy, the Communist Party in the aftermath of the 1949 
Revolution, established a number of top-down mechanisms to fight, or 
give the appearance it was fighting, the problem. The first such 
mechanism was the ``Control Commission,'' established in 1950. Other 
bodies were created in subsequent years, such as the Central 
Disciplinary Inspection Commission, the Ministry of Supervision, the 
Ministry of Inspection, and the Procuracy. Many of these organizations 
have branches at all governmental levels. But even with a dizzying 
multiplicity of these supervisory agencies, little seems to slow the 
flourishing corruption ``industry.''
    Each instance of corruption has its injured party: the residents 
forced off their land to increase the wealth of an urban developer; the 
honest taxpayers who must take up the slack when corrupt officials help 
their children's companies evade the value-added tax; the honest 
bidders on public contracts who lose opportunities to well-connected 
bidders; the villages whose hard-earned school fees are diverted to pay 
for fancy lunches for bigwigs.
    In some cases, the injured party has the power to strike back. In 
one recent case, a high Bank of China official made suspect loans to a 
wealthy property developer and his wife for a lucrative Shanghai 
development project. Some of the loans were made from the Bank's Hong 
Kong branch. They came to light under the Special Administrative 
Region's Transparency rules and a Hong Kong investigation ensued. 
Investors on the Hong Kong Stock Exchange could rely on Hong Kong's 
laws to rectify malfeasance. The banker was fired, expelled from the 
Party, and sentenced to 12 years in prison for corruption. The 
developer's wife was arrested but a Hong Kong investigation into the 
financial dealings of the developer himself hit a dead end in Shanghai. 
The mainland Chinese people whose homes were razed to make room for the 
development financed by the fraudulent loans were unable to hold any of 
the three accountable under Chinese law. Indeed, some of the homeowners 
who made their way to Beijing to complain were themselves punished as 
troublemakers.
    The lesson here is that even the existence of laws cannot prevent 
or even result in the punishment of corruption if they can be trumped 
by a veiled ``party in interest.'' Another lesson is that lack of 
transparency in the banking and securities industries may well be a 
``glass ceiling'' that prevents China from participating more widely in 
the world's capital markets. Already, some journalists report that 
interest in Chinese IPO's has cooled, as investors realize that a gulf 
exists between the due diligence available in China and that practiced 
elsewhere.
    And, ironically, Chinese anti-corruption laws have been misused by 
a vengeful local government to punish a progressive South China 
newspaper for its exposes. The Southern Metropolitan Daily, published 
in Guangzhou, reported in 2003 a student's death in the harsh ``Custody 
and Repatriation'' system. Its articles on the case ultimately resulted 
in the State Council's decision to abolish the system. The newspaper 
also played a role in publicizing the threat of SARS, which local 
officials evidently sought to cover up to avoid hurting the local 
economy. Southern Metropolitan Daily also reported on the avian flu 
threat in 2003. But this year local government officials found an 
excuse to prosecute the editors involved, using the anti-corruption 
laws to attack the newspaper's allocation of bonus money. As a result 
of these prosecutions, the independent voice of the Southern 
Metropolitan Daily has been curtailed.
    From this type of case, we learn that it is not enough to pass laws 
and rules to control corruption from the top. Even the best laws 
require the power of an informed and active citizenry able to hold 
officials accountable with the sanction of the ballot box.
    China is large and diverse with a multi-century tradition of 
decentralized provincial autonomy and, at various points in its 
history, a reliance on magistrate-scholars. It is this decentralized 
magistrate-scholar tradition coupled with expanded democratic rights 
that authorities in Beijing might be advised to think through as they 
deal with various tensions in internal citizen relations.
    Hong Kong is a case in point. America as well as China has an 
enormous vested interest in the success of the ``one country, two 
systems'' model in Hong Kong. From a Congressional perspective, it 
would appear self-evident that advancing constitutional reform--
including universal suffrage--would contribute to the city's political 
stability and economic prosperity.
    The people of Hong Kong made plain their aspirations for greater 
democratic autonomy, aspirations fully within the framework of the 
``one country, two systems'' formula, when they so impressively 
demonstrated on July 1 last year. In the aftermath of those peaceful 
demonstrations, the Hong Kong government appeared to listen to the 
people and withdrew controversial national security legislation pending 
additional consultations with the populace of the city. The people of 
Hong Kong again showed their keen interest in participatory democracy 
when they turned out in record numbers for District Council elections 
last November.
    Regrettably, however, recent decisions by Beijing setting limits on 
constitutional development in Hong Kong, appear to be inconsistent with 
the ``high degree of autonomy'' promised by the central authorities in 
the 1982 Joint Declaration and the Basic Law.
    Whether the 21st Century is peaceful and whether it is prosperous 
will depend on whether the world's most populous country can live with 
itself and become open to the world in a fair and respectful manner. 
Hong Kong is central to that possibility. As such, it deserves our 
greatest attention, respect, and good will.
    Hong Kong is important unto itself; it is also a model for others. 
What happens there is watched particularly closely by the Taiwanese. In 
a globalist world where peoples everywhere are seeking a sense of 
community to serve as a buttress against political and economic forces 
beyond the control of individuals and their families, it is next to 
impossible to reconcile political systems based on unlike institutions 
and attitudes. Mutual respect for differences is the key to peace and 
prosperity in a world in which history suggests conflict has been a 
generational norm.
    With reference to Taiwan, last month marked the 25th Anniversary of 
the enactment of the Taiwan Relations Act (TRA). As one who was a 
proponent of the Act, I am proud of a small provision I authored 
relating to human rights and democratization. And as a lead member of 
what came to be know in the 1970s and 1980s in Taiwan as the 
Congressional ``Gang of Four,'' a small band of Senators and House 
Members (which also included Senators Kennedy and Pell and 
Representative Solarz) who advocated greater democratization on the 
island, I came to know many of the current leaders of Taiwan. It is 
with the greatest respect that I observed the courage and sacrifices of 
those who challenged their government to open up to democracy. It is 
therefore with the humility of a legislator who never had to face, as 
they did, the prospect of imprisonment for holding views different than 
that of authorities in power that I am obligated to underscore a 
message of restraint for Taiwanese leaders today.
    But first let me stress that the vibrant multi-party system and 
opportunity-oriented economy that has developed over the past 25 years 
on Taiwan is a prototype for the world of progressive political and 
economic change.
    The miracle of Taiwan's peaceful democratic transition is of great 
significance not only to its 23 million citizens, but also to the 
billion residents of the Chinese mainland who now have the chance to 
review another model of governance and social organization of a people 
with a similar cultural heritage.
    The government and citizens of the United States have an enormous 
vested interest in peaceful relations between Taipei and Beijing. All 
Americans strongly identify with Taiwan's democratic journey and we 
join in celebrating the fact that the people of Taiwan now enjoy such a 
full measure of human freedom.
    More broadly, we are acutely conscious that the 20th Century was 
the bloodiest century in world history. It was marred by wars, ethnic 
hatreds, clashes of ideology, and desire for conquest. Compounding 
these antagonisms has been the prideful miscalculation of various 
parties. Hence it is in the vital interests of potential antagonists in 
the world, particularly those on each side of the Taiwan Strait, to 
recognize that caution must be the watchword in today's turbulent 
times. Political pride and philosophical passion must not blind peoples 
to the necessity of rational restraint. Peaceful solutions to political 
differences are the only reasonable framework of future discourse 
between the mainland and the people of Taiwan.
    Here, it is critical to review the history both of the breakthrough 
in U.S.-China relations that occurred during the Nixon Administration 
and the philosophical aspects of American history which relate to 
issues of a nature similar to mainland-Taiwan divisions today. First, 
with regard to U.S. recognition of China, which was formally ensconced 
in a carefully negotiated communique and two subsequent understandings, 
the U.S. accepted a ``One China'' framework for our relations with the 
most populous country in the world. The three Executive Branch 
communiques were complemented by the Taiwan Relations Act, which 
establishes a commitment of the United States that no change in the 
status of Taiwan be coercively accomplished through the use of force.
    The American heritage is that consent of the governed is the 
principal basis of governmental legitimacy, but from the beginning of 
the republic we have accepted the notion there are many sovereign 
states that do not share our philosophical value systems. Accordingly, 
we chose to formally recognize the government in Beijing as the 
effective government of the Chinese people even though, like Moscow at 
the time, that government was philosophically modeled in a way we found 
inappropriate.
    Ironically, while anti-communist, the party of Chiang Kai-shek on 
Taiwan had certain organizational attributes similar to the Communist 
Party on the mainland. And in one circumstance of philosophical 
consistency, both the Kuomintang of Chiang Kai-shek and the Communist 
Party of Mao Zedong claimed to be the 
governing party of all of China, including Taiwan. Hence, the Nixon 
``one China'' approach did not contradict the nationalistic positions 
of the Kuomintang or the Chinese Communist Party.
    The dilemma which comes to be accentuated with the passage of time 
is the question of whether Taiwan can legally seek today de jure 
independence on the basis of a referendum of the people. Here, there 
are contrasting models in American philosophy and history as well as 
security concerns for all parties to a potential rupture that must be 
prudently thought through.
    Philosophically, Americans respect Jeffersonian revolutionary 
approaches. We also respect Lincolnesque concerns for national unity. 
Jeffersonian radicalism dictates one way of looking at Taiwan; 
Lincolnesque concerns that a house divided can not ultimately stand 
lead to another conclusion. It is in this context that America 
delivered a split judgment. The three communiques affirmed ``one 
China'' and the Taiwan Relations Act affirmed de facto, but not de 
jure, relations with a government of a non-state, one which was 
authoritarian in the 1970s but strongly democratic today. But from the 
perspective of the American government, there should be no doubt of the 
consistency of American policy. Under this President, as each of his 
predecessors--Presidents Nixon, Ford, Carter, Reagan, Bush, and 
Clinton--the governing American position is the acknowledgment of the 
Chinese position that there is but one China of which Taiwan is a part. 
For U.S. or Taiwanese leaders to assert any other position would create 
an earthquake in world affairs.
    The issue of Taiwan is unique but anything except abstract. It is 
conceivable that missteps of political judgment could, more readily 
than many suppose, lead to World War III. More likely, misjudgments 
could precipitate a civil war as irrational, although of a vastly 
different kind, as the Taiping Rebellion of the 1850s. While it may be 
natural for many Taiwanese-Americans and many, but perhaps not a 
majority of Taiwanese on the island, to advocate irrevocably breaking 
off all ties with the mainland, there should be no misunderstanding the 
consequences of such a decision. It would lead to a war and the death 
of millions.
    The precepts of ``self-determination'' and ``independence'' may in 
most political and historical contexts be conceptually almost 
synonymous. But these two precepts are juxtaposed on one place on the 
planet. Taiwan can have de facto self-determination--meaning the 
ability of a people to maintain a government accountable to its 
populace--only if it does not attempt to be recognized with de jure 
sovereignty by the international community. To be precise, the 
Taiwanese people can have self-determination as long as they do not 
seek independence; if they assert independence, their capacity for 
self-determination will collapse. Hence, for the sake of peace and 
security for peoples of the island and the broader Asia-Pacific region, 
there is no credible option except to emphasize restraint.
    While clarity of national identity is psychologically attractive, 
security for the Taiwanese people comes best with political ambiguity. 
There is simply nothing to be gained by steps toward independence if 
such steps precipitate a catastrophic and unwinnable conflict between 
the mainland and the island.
    Care has to be taken that all parties concerned fully comprehend 
the latent and deepening dangers across the Taiwan Strait. The last 
thing any of us want is a replay of ``The Guns of August,'' with Taipei 
becoming a 21st century Sarajevo. Taipei's leadership must understand 
that while it may be true that Beijing's priorities today generally 
relate to economic development, there is no peaceful prospect of 
sundering the mainland's ``one China'' claim. Any unilateral attempt by 
either side to change the status quo across the Taiwan Strait is 
fraught with danger of the highest order.
    As we make it clear to China that the U.S. is steadfastly committed 
to ensuring that the status of Taiwan not be altered by force, we also 
have an obligation not to entice Taiwan through ill-chosen rhetoric of 
``ours'' or ``theirs'' into a sovereignty clash with China. Substantial 
Taiwanese self-determination can be maintained only if sovereign 
nationalist identity is not trumpeted.
    Together with our historic ``One China'' policy, the Taiwan 
Relations Act has to date made an enduring contribution to peace and 
stability in the Taiwan Strait. It provides a sturdy framework to help 
ensure Taiwan's security. There should be no doubt that Congress stands 
with the Administration in a common determination to fulfill 
obligations under the TRA. But these obligations presuppose that 
Taiwanese leaders must understand and mainland resolve the stakes at 
issue and refrain from capricious actions that invite conflict or make 
constructive dialogue impossible.
    Beijing also has implicit obligations to the international order. 
Yet it is amazing how so-called realists in government circles in so 
many capitals underestimate the ``soft power'' of people-to-people and 
cultural relations.
    While recent years have witnessed a new maturity and sophistication 
in Chinese foreign policy, more nuanced and pragmatic policy approaches 
have not generally been applied to Taiwan.
    For instance, instead of seeking to isolate Taiwan, isn't it in 
Beijing's interest to be magnanimous toward the people of the island?
    If advocacy of independence is off the table, shouldn't Beijing 
cease its objections to the foreign travel of Taiwanese leaders?
    Shouldn't it shepherd Taiwanese membership in international 
organizations that do not imply sovereignty--such as helping Taiwan 
gain observer status in the World Health Organization?
    Rather than setting deadlines for unification or continuing a 
counterproductive military buildup, wouldn't Beijing be well-advised to 
emphasize culture and economics in its relations with Taipei?
    Wouldn't the granting of scholarships to Taiwanese students yield 
greater dividends than misdirected investments in threatening missile 
systems?
    Wouldn't it be reasonable to assume that Taiwanese attitudes toward 
the mainland would improve if Beijing's leaders made air transport 
between the island and the mainland easier?
    And wouldn't it be reasonable to assume that the attitudes on the 
mainland would become less polarized if the Taiwanese promoted tourism 
and education exchanges with mainland residents?
    Shouldn't each side barrage the other with cultural exchanges--
painting, poetry, dance, drama?
    And, on the military front, wouldn't it be in both side's interests 
to upgrade communications, widen professional exchanges, and engage in 
confidence building measures to reduce the likelihood of accidental 
conflict?
    In all human circumstances, wars in particular, there are 
analogies, although seldom exactly replicable conditions. I began this 
too-long speech with an aside about attitudes toward democracy in Iraq. 
A follow-on analogy may be in order. This President's father 
masterfully led the international community in the liberation of 
Kuwait. American diplomacy, however, that preceded Saddam Hussein's 
decision to invade is open to question. In her one meeting with Saddam, 
the American ambassador did not have the presence of mind to warn of 
the consequences of military action, in part because few in Washington 
or the region thought Saddam's saber rattling to be more than show. 
Likewise, a high profile Congressional delegation that visited Saddam 
apparently also missed the big picture. At the risk of presumption and 
perhaps over-statement, America today is watching 'the build-up of 
polarizing attitudes on both sides of the Taiwan Strait that demands 
attention and review by all parties, including the United States. 
Whether prospects of conflict are 50 percent or only 5 percent, they 
are too high.
    The greatest geo-strategic irony in world affairs is that the U.S. 
and China have a commonality of interest and are working well together 
to resolve or at least constrain challenges associated with North Korea 
where the economics and politics of an isolated, rogue regime have 
deteriorated to the point of potential implosion. But it is Taiwan 
where economics and politics have conjoined to take more progressive 
strides than any place on earth over the past generation that the 
greatest prospect of conflict may exist in Asia. In this circumstance 
common sense would indicate that the U.S. has an obligation not to egg 
Taiwan on in unrealistic independence ambitions and China has an 
obligation not to commence a series of steps that could escalate 
tension and lead in a domino decision-making fashion to unavoidable 
conflict.
    Nonetheless, we must recognize that mainland Chinese society is 
changing far more rapidly than most Americans realize. While the 
political system largely protects status quo power arrangements, the 
ability of individual citizens to discuss and criticize governmental 
policies within family, school, and workplace environments increases 
with each passing year. And in the field of economics, the late Deng 
Xiaoping underscored China's pragmatism with his cat and mice metaphor.
    To some degree, that pragmatism has been extended to Communist 
Party ideology. The class basis of social leadership has been 
broadened. The Party is now told it represents the advanced forces of 
production, culture, and the fundamental interests of the vast majority 
of the people, and as a consequence entrepreneurs and citizens of 
accomplishment are being encouraged to seek Party membership.
    But just as red-painted cats aren't very cagey in the marketplace, 
so gray coats aren't very invigorating in government. Competitive 
decentralized politics best fits competitive, free markets.
    Perhaps the only revolutionary leader held in high esteem in both 
Beijing and Taipei is Sun Yat-sen. His principal contribution to 
Chinese political thought is the precept of a three-stage, guided 
evolution to political democracy. His modern day disciples are 
frustrated that they are stultified in a second stage, the so-called 
period of ``democratic tutelage,'' a time marked in today's China by a 
freeing up of commerce but not politics. These citizens assume that the 
country is now capable of moving rapidly to the third stage, full 
democracy, and that there is simply an incompatibility of China's free 
markets with its authoritarian political system.
    From an American perspective, the assumption is that China's 
economic and social system cannot develop to its fullest unless the 
rule of law and its associated rights--including freedom of speech and 
of the press, due process for disputes over contractual obligations, 
and a judiciary that efficiently and fairly adjudicates disputes--are 
made central tenets of Chinese life.
    Instability is simply too easily unleashed in society when 
governments fail to provide safeguards for individual rights and fail 
to erect political institutions adaptable to change and accountable to 
the people.
    Let me conclude with one of my favorite anecdotes about a Chinese 
leader. A little over a generation ago a group of French journalists 
interviewed Zhou Enlai and at the end of their discussion asked him 
what he thought was the meaning of the French Revolution. He hesitated 
and then said, ``It is too early to tell.''
    With Zhou's restraint in mind, it may be too early to tell the 
exact ramifications of a quarter century of economic reform in China. 
But it is certain that the ramifications are deep and profound and 
whether political change will occur this week, next year, or next 
decade, change is inevitable. The only question is whether that change 
will be principally for the good.
    From a Chinese perspective, Zhou may have been right to reserve 
judgment. It is too early to assess the meaning of the French 
Revolution in an Asian context. Thirty years ago, many western educated 
Asians were Franco-Jeffersonian democrats. Jefferson's emphasis on 
individual rights--life, liberty, and the pursuit of happiness--and the 
revolutionary French call for liberte, egalite, fraternite appeared to 
be compelling universalist notions vastly preferable to Marxist jargon. 
Today, however, Asian intellectuals accept the market economy and 
recognize the coercive nature or, at best, irrelevance of Marxism. But 
they look at the interventionist nature of contemporary American 
foreign policy in the Middle East and the violence of American culture 
at home and many have concluded that unconstrained power and 
unmitigated freedom can sometimes produce negative consequences. They 
believe that rights should be tempered by a concomitant emphasis on 
responsibilities and that a cohesive society requires a greater neo-
Confucian family and, by implication, governmental discipline.
    So while the future of the Chinese-American relationship may 
primarily relate to the direction of change in China, it also relates 
to the direction of change in American governance and culture. America 
sees issues between our countries reflected in the balance of trade, in 
the sharing of global obligations, in the defusing of tensions in 
countries like North Korea, in Chinese belligerency, or lack thereof, 
in relations with its neighbors. But, at the same time, China is 
apprehensive about the possible development of an American enemy-
oriented mindset and about the potential dissolution of traditional 
American family values. They would like us to become more Confucian as 
we would wish them to become more Jeffersonian.
    In the years since the tragedy at Tiananmen Square, pundits at 
several points have declared U.S.-China relations to be at a 
confrontational crossroads. Each time, the leadership of both countries 
chose to exercise restraint and find ways to pragmatically address the 
issues of concern. These action-reaction incidents suggest Beijing's 
leadership is prepared to moderate decisions based on overriding 
economic and other pragmatic priorities and that Washington is prepared 
to maintain its focus on the long-term and endeavor to build a 
cooperative, mutually beneficial framework for Sino-American relations, 
one that welcomes greater Chinese participation in the rules-based 
international system, and encourages progress by China toward a more 
open, accountable, and democratic political system.
    Finally, a note about the consequences of a possible advancement of 
decentralized democracy in China. Such would enhance what used to be 
quaintly described in America as ``domestic tranquility'' by making 
internal decision-making more accountable to and thus more acceptable 
by the people. It would also make the prospect of conflict with other 
countries, particularly the United States, less likely. But great power 
differences of judgment and interests would continue. History suggests 
that democracies are less prone to go to war with each other, but 
governments reliant on citizen input can from time to time accentuate a 
populist hardening of differences, which in a U.S.-China context could 
include issues as diverse as trade policy, family planning, and the 
muscularity of power projection. Democracy implies a political 
process--preferable to all others--but it is not a guarantor of good 
judgment. What it provides, however, is a shortened feedback mechanism 
to ensure policy adjustments when policy mistakes are made.
    The nature of politics is that pride plays a disproportionately 
large role relative to its role in other human enterprises. The human 
factor--foibles in particular--can never be underestimated in 
governmental decision-making. As two obscure 19th century Italian 
political theorists--Vito and Paretto--noted: whatever the political 
system, at critical times a few at the top have the authority to make 
decisions for a nation. In times like these, leaders, no matter how 
democratic and well intended (or the reverse), can make mistakes that 
carry monumental consequences. It is in this sobering context that the 
most important bilateral relationship of the 21st Century will be 
between China and the United States. If that relationship is ill-
managed, the likelihood of conflict and economic trauma will be great. 
But if the relationship is managed well, the benefits in terms of 
economic prosperity and world peace will be commensurate.
                                 ______
                                 

  Prepared Statement of Hon. Chuck Hagel, U.S. Senator From Nebraska, 
        Co-Chairman, Congressional-Executive Commission on China

                              JUNE 3, 2004

    Washington, DC.--Fifteen years ago the People's Liberation Army 
cleared Tiananmen Square of the peaceful demonstrators who had held it 
for several weeks. The shocking sounds and images of unarmed students 
and workers gunned down by Chinese troops remain vivid in our minds. 
The demonstration was crushed that awful day, but the optimism and 
possibilities represented by those fighting for a future democratic 
China were not. We meet today to remember their voices, and assess 
China's progress in meeting their goals.
    I am especially pleased that this Commission will hear today from 
two leaders of the 1989 democracy movement, Mr. Wang Youcai and Ms. Lu 
Jinghua. These individuals have never given up the struggle for their 
country's democratic future, and their insights and sacrifice will 
greatly inform today's proceedings.
    Mr. Chairman, I congratulate you for holding today's hearing. China 
today faces important choices for its political future. These choices 
will affect the lives and welfare of all Chinese citizens, but China's 
size and growing importance guarantee that these same choices will 
reverberate around the globe in ways that we can only dimly predict and 
understand today. China's future is also important to America's future. 
It is in our interest to work broadly and deeply with the Chinese 
government using all the bridges and opportunities available to us to 
help shape and ensure a democratic future for China.
    China is a much-changed and much-changing place. The results of two 
decades of market reforms are visible nearly everywhere. The cold, gray 
Beijing airport where I first saw China on New Year's Day in 1983 has 
long been replaced with a state-of-the-art facility. The skylines of 
China's major cities have changed dramatically. These are the most 
prominent symbols of China's new wealth, but the economic reforms that 
generated these changes have also fundamentally altered the dynamics 
that will define China's future.
    The economic realities of building a modern nation while feeding, 
clothing and employing 1.3 billion people have begun to drive China in 
directions that, I believe, some within the Communist Party have not 
wanted to go. The twin demands of political stability and continued 
economic progress have spurred legal reforms that someday may be the 
leading edge of constraints on the arbitrary exercise of State power. 
Elections at the village level are now commonplace in China, and 
limited experiments like these continue at other levels of government. 
Shanghai is experimenting with public legislative hearings, and the 
term ``human rights'' was recently added to China's own constitution.
    While these changes are important, the gap between forward-looking 
economic freedoms and a backward-looking political system remains 
significant. The Communist Party continues to crush any person or 
movement it perceives as challenging its hold on power. But there are 
leaders now within China that comprehend the necessity for change, and 
understand that inflexibility, secretiveness and a lack of democratic 
oversight now pose the greatest challenges to continued development. 
President Hu Jintao and Premier Wen Jiabao have demonstrated, albeit 
unevenly, that they may be two such leaders, but they will need to 
gather considerable reformist courage to drive continued change. Not 
overnight, but in ways that Chinese society, culture, infrastructure 
and institutions may be prepared for, and willing to accept.
    With no voice in their own political future, the frustration of 
China's citizens is growing. The political scientist Murray Scot Tanner 
cites police figures in the current issue of National Interest showing 
the number and size of protests in China growing rapidly in the 1990s. 
It is extraordinary that China's ruling party came to power in a 
peasant revolution, representing the working class, but now faces waves 
of both worker and rural protests. China's citizens are fed up with 
corruption, a social and economic ill that China's student 
demonstrators both recognized and offered a democratic solution for in 
1989.
    The United States wants to work with China to build a more open and 
participatory society. David M. Lampton wrote in the Fall 2003 issue of 
National Interest that ``Americans must balance the impulse to treat 
China as it is with the foresight to recognize China for what it may 
become.'' China will not match the United States on every issue. 
Political change is complex and imperfect, and it will be up to the 
Chinese people to determine where their country goes and how it gets 
there. But China's leaders must take the first steps, and the United 
States must be ready to assist.
    Thank you.
                                 ______
                                 

Prepared Statement of Hon. Joseph R. Pitts, a U.S. Representative From 
                              Pennsylvania

                              JUNE 3, 2004

    Mr. Chairman, thank you for holding this important hearing on ``15 
Years After Tiananmen: Is Democracy China's Future? '' Today we 
remember and stand with those who fought for and those who continue to 
work for freedom and democracy in China. The depth of courage and 
strength shown during the Tiananmen Square events 15 years ago remains 
as we continue to meet with and receive reports of democracy and 
religious leaders beaten, arrested, imprisoned, and tortured for their 
beliefs.
    The repression of basic rights by Chinese officials, particularly 
related to freedom of speech and freedom of conscience, reflect the 
intense battle within Chinese society between those who wish to live in 
freedom and those who wish to exert extreme control over the society 
and individuals, their actions, speech, and even their thoughts. Yet, 
accounts clearly reveal that the Chinese people desire laws that 
protect their freedom, whether it be the freedom to move around the 
country, freedom to think and verbalize views differing from those of 
the Central Party, freedom to practice their religion without 
interference or freedom to creatively explore economic opportunities.
    As the U.S. Government implements our on-going dialog with the 
Chinese government on democracy, human rights, and other vital issues, 
we must continue to clearly and strongly reflect our support for the 
Chinese people to practice their fundamental rights. Our commitments 
and priorities must also be reflected in the programs we support in 
relation to democracy and civil society in China. I would like to 
commend Assistant Secretary Craner and State Department personnel in 
the Bureau of Democracy, Human Rights and Labor for their determination 
and commitment to pressing these ideals regarding China. I would also 
like to commend Mr. John Kamm and others who, through creative dialog 
and relationships, have been key to effective work in the release of 
prisoners and progress on human rights issues. It is through the work 
of men and women in our government, in business, in NGOs, and in 
academia that positive progress is being made in China.
    Mr. Chairman, this Commission was established to ensure that the 
Congress and the U.S. Government had a high profile vehicle through 
which to continue raising concerns about human rights issues in China. 
The myriad reports we all receive on human rights violations in China 
underscore the importance of addressing these violations and abuses in 
deliberate, practical ways. Hearings such as today's are vital in 
continuing to keep the spotlight on political, religious, labor, 
democracy, civil society, women's and many other human rights issue in 
China. I would like to urge that the Commission hold more hearings to 
spotlight these issues. In addition, we must continue to highlight 
important activities of the Commission, such as the building of the 
prisoner data base by Commission staff.
    Mr. Chairman, the Chinese people deserve to live in a nation in 
which their government protects their rights. Thank you for holding 
today's hearing--I look forward to hearing from today's distinguished 
witnesses.

                       Submission for the Record

                              ----------                              


                     China's Changing of the Guard

                        Authoritarian Resilience

                          BY ANDREW J. NATHAN

Andrew J. Nathan is Class of 1919 Professor of Political Science at 
Columbia University. He is co-editor with Perry Link of The Tiananmen 
Papers (2001) and co-author with Bruce Gilley of China's New Rulers: 
The Secret Files (2002).

    After the Tiananmen crisis in June, 1989, many observers thought 
that the rule of the Chinese Communist Party (CCP) would collapse. 
Instead, the regime brought inflation under control, restarted economic 
growth, expanded foreign trade, and increased its absorption of foreign 
direct investment. It restored normal relations with the G-7 countries 
that had imposed sanctions, resumed the exchange of summits with the 
United States, presided over the retrocession of Hong Kong to Chinese 
sovereignty, and won the right to hold the 2008 Olympics in Beijing. It 
arrested or exiled political dissidents, crushed the fledgling China 
Democratic Party, and seems to have largely suppressed the Falun Gong 
spiritual movement.
    Many China specialists and democracy theorists--myself among them--
expected the regime to fall to democratization's ``third wave.'' 
<SUP>1</SUP> Instead, the regime has reconsolidated itself.<SUP>2</SUP> 
Regime theory holds that authoritarian systems are inherently fragile 
because of weak legitimacy, overreliance on coercion, 
overcentralization of decision making, and the predominance of personal 
power over institutional norms. This particular authoritarian system, 
however, has proven resilient.
    The causes of its resilience are complex. But many of them can be 
summed up in the concept of institutionalization--understood either in 
the currently fashionable sense of behavior that is constrained by 
formal and informal rules, or in the older sense summarized by Samuel 
P. Huntington as consisting of the adaptability, complexity, autonomy, 
and coherence of state organizations.<SUP>3</SUP> This article focuses 
on four aspects of the CCP regime's institutionalization: (1) the 
increasingly norm-bound nature of its succession politics; (2) the 
increase in meritocratic as opposed to factional considerations in the 
promotion of political elites; (3) the differentiation and functional 
specialization of institutions within the regime; and (4) the 
establishment of institutions for political participation and appeal 
that strengthen the CCP's legitimacy among the public at large. While 
these developments do not guarantee that the regime will be able to 
solve all the challenges that it faces, they do caution against too-
hasty arguments that it cannot adapt and survive.

                     NORM-BOUND SUCCESSION POLITICS

    As this article is published, the Chinese regime is in the middle 
of a historic demonstration of institutional stability: its peaceful, 
orderly transition from the so-called third generation of leadership, 
headed by Jiang Zemin, to the fourth, headed by Hu Jintao. Few 
authoritarian regimes--be they communist, fascist, corporatist, or 
personalist--have managed to conduct orderly, peaceful, timely, and 
stable successions. Instead, the moment of transfer has almost always 
been a moment of crisis--breaking out ahead of or behind the nominal 
schedule, involving purges or arrests, factionalism, sometimes 
violence, and opening the door to the chaotic intrusion into the 
political process of the masses or the military. China's current 
succession displays attributes of institutionalization unusual in the 
history of authoritarianism and unprecedented in the history of the 
PRC. It is the most orderly, peaceful, deliberate, and rule-bound 
succession in the history of modern China outside of the recent 
institutionalization of electoral democracy in Taiwan.<SUP>4</SUP>
    Hu Jintao, the new general secretary of the CCP as of the Sixteenth 
Party Congress in November 2002, has held the position of successor-
apparent for ten years. Four of the other eight top-ranking 
appointments (Wu Bangguo, Wen Jiabao, Zeng Qinghong, and Luo Gan) had 
been decided a year or two in advance. The remaining four members of 
the Politburo Standing Committee (PBSC) were simply elevated from the 
outgoing Politburo. Barring a major crisis, the transition will 
continue to an orderly conclusion in March 2003, leading to the 
election of Hu Jintao as state president and chairman of the Central 
Military Commission, Wu Bangguo as chair of the National People's 
Congress (NPC), and Wen Jiabao as premier. Outgoing officials President 
Jiang Zemin, NPC Chair Li Peng, and Premier Zhu Rongji will leave their 
state offices, having already left their Party offices in the fall, and 
will cease to have any direct role in politics.
    It takes some historical perspective to appreciate this outcome for 
the achievement that it is. During the Mao years, Party congresses and 
National People's Congresses seldom met, and when they did it was 
rarely on schedule. There have never before been effective terms of 
office or age limits for persons holding the rank of ``central 
leader''; Mao and Deng each exercised supreme authority until the end 
of his life. Nor has there ever been an orderly assumption of office by 
a designated successor: Mao purged Liu Shaoqi, the president of the 
PRC, by having Red Guards seize him and put him in prison, where he 
died. Mao's officially designated successor, Lin Biao, allegedly tried 
to seize power from Mao, was discovered, and died in a plane crash 
while fleeing. Mao appointed Hua Guofeng as his successor simply by 
stating that Hua was his choice. Hua was removed from office at Deng 
Xiaoping's behest before Hua's term of office was over. Deng removed 
from power both of his own chosen successors, Hu Yaobang and Zhao 
Ziyang. Deng and the other elders overrode the Politburo in 1989 to 
impose Jiang Zemin as successor to the Party leadership.
    Measured against these historical precedents, the current 
succession displays many firsts, all indicative of 
institutionalization:

<bullet> Jiang Zemin survived his full allotted time in office. He was 
    installed as general secretary in 1989, and was reelected in 1992 
    and 1997, serving two-and-a-half terms (he assumed the Central 
    Military Commission chairmanship in 1989 and the state presidency 
    in 1992). His patron, Deng, did not remove him from office 
    (although Deng considered doing so in 1992). Although Jiang was 
    called to the top post in Beijing over the heads of Li Peng and Li 
    Ruihuan, and had at times adversarial relations with both of them, 
    neither tried to replace him. In consolidating his authority, Jiang 
    engineered the fall from power of Yang Shangkun in 1992 and Qiao 
    Shi in 1997, but neither of these men tried to unseat him.
<bullet> Jiang did not stay in office past the time when, according to 
    the rules, he should have left office. In 1997, the Politburo 
    established by consensus a new, informal rule that senior leaders 
    should not be reappointed to another term after they reach the age 
    of 70. When this rule was established, Jiang was 71, but he had 
    himself declared a one-time exception to it, promising to retire in 
    2002. This promise, along with the fact that he would be 76 in 
    2002, were the main reasons why no serious consideration was given 
    to his remaining in office, even though there was much speculation 
    in the international press that he was trying to stay. The age-70 
    rule will also make it necessary for Jiang to retire from the post 
    of Central Military Commission chairman, a post for which there 
    have never been either term or age limits, and to which the 1997 
    decision did not explicitly apply. Jiang's third post, the state 
    presidency, is limited by the Constitution to two terms, which he 
    has already served.
<bullet> Jiang Zemin was the first leader in the history of the 
    People's Republic of China (PRC) not to select his own successor. 
    Mao chose several successors for himself (Liu Shaoqi, Lin Biao, and 
    Hua Guofeng). So did Deng (Hu Yaobang, Zhao Ziyang, and Jiang 
    Zemin). By contrast, Deng Xiaoping made Hu Jintao the PBSC's 
    youngest member in 1992, and for the entire ten years of Hu's 
    incumbency as informal successor designate, Jiang Zemin did not 
    challenge Hu's position. The incoming premier, Wen Jiabao, was 
    recommended by Zhu Rongji over Jiang's choices, Wu Bangguo and Li 
    Changchun.
<bullet> The retired elders (consisting after 1997 of Wan Li, Qiao Shi, 
    Song Ping, Liu Huaqing, and several others) did not attempt to 
    intervene in the succession or, indeed, in any decision. The right 
    of three earlier elders (Deng Xiaoping, Chen Yun, and Li Xiannian) 
    to intervene had been established by a secret Politburo resolution 
    in 1987 and was reinforced by Deng's chairmanship of the Central 
    Military Commission. This right was exercised to decisive effect 
    during the 1989 Tiananmen crisis.<SUP>5</SUP> In 1997, Deng 
    Xiaoping, the last of the three elders, died. A new group of elders 
    was created by the retirements of Qiao Shi and others from the 
    PBSC. The 1987 Politburo resolution was not renewed for them, nor 
    did any of them sit on the CMC. These new elders received intra-
    Party documents and occasionally expressed their views,<SUP>6</SUP> 
    but they did not attend Politburo meetings or exercise any 
    decision-making power.
<bullet> The military exercised no influence over the succession. 
    Although some senior military officers spoke in favor of Jiang's 
    staying on in the position of CMC chair, they were ignored. They 
    expressed no views on any other issue relating to the transfer of 
    power. The succession of uniformed officers within the CMC echoes 
    that in the civilian hierarchy: Senior officers associated with 
    Jiang Zemin and over the age of 70--Fu Quanyou and Yu Yongbo--have 
    retired, to be replaced by a younger generation of officers. 
    Following a tradition set in place in 1997, no uniformed officer 
    was elected to the PBSC; the military representatives in Party 
    Center were seated in the Politburo.
<bullet> The selection of the new Politburo was made by consensus 
    within the old Politburo. The process was, to be sure, dominated by 
    the senior members, and each of them tried and succeeded in placing 
    associates in the successor body. But these factional 
    considerations were played out within limits imposed by the need 
    for a leadership consensus. None of the top leaders--Jiang, Li 
    Peng, or Zhu Rongji--was powerful enough to force a nominee on his 
    colleagues against their wills.

    Never before in PRC history has there been a succession whose 
arrangements were fixed this far in advance, remained so stable to the 
end, and whose results so unambiguously transferred power from one 
generation of leaders to another. It is not that factions no longer 
exist, but that their powers are now in a state of mutual balance and 
that they have all learned a thing or two from the PRC's history. 
Political factions today have neither the power nor, perhaps more 
importantly, the will to upset rules that have been painfully arrived 
at. The absence of anyone with supreme power to upset these rules helps 
make them self-reinforcing.

                   MERITOCRACY MODIFIES FACTIONALISM

    Factional considerations played a role in the succession process. 
But they were constrained by a twenty-year process of meritocratic 
winnowing that limited the list of candidates who could be considered 
in the final jockeying for position. Certainly, except for the period 
of the Cultural Revolution (1966-76), there have always been both 
meritocratic and factional elements in promotions within the Chinese 
party-state. But until now, even at the most meritocratic times, the 
major criteria for promotion at the top were the ability to shift with 
changing political lines and personal loyalty to the top leader--first 
Mao Zedong, then Deng Xiaoping. While those among the new leading group 
are ideologically alert and politically savvy, and have mostly allied 
themselves with one senior leader or another, they rose to the top 
predominantly because of administrative skill, technical knowledge, 
educational background, and Party, rather than personal loyalty.
    Political factions today have neither the power nor the will to 
upset rules that have been painfully arrived at. The absence of anyone 
with supreme power to upset these rules helps make them self-
reinforcing.
    The start of this process was Deng Xiaoping's 1980 instruction to 
senior Party leaders to undertake a ``four-way transformation'' (sihua) 
of the cadre corps by finding and promoting cadres around the age of 40 
who were ``revolutionary, younger, more educated, and more technically 
specialized'' (geminghua, nianqinghua, zhishihua, zhuanyehua). In this 
way, Hu Jintao was promoted several levels by the CCP first secretary 
of Gansu Province, where he was then working; Wu Bangguo was promoted 
to party secretary of Shanghai's science and technology commission; and 
Wen Jiabao became deputy head of the provincial geology bureau in 
Gansu. The story was more or less the same for each member of the new 
Politburo.
    In 1983, the CCP's Organization Department created a list of the 
most promising cadres of the ``four transformations'' generation, which 
it turned to whenever it needed to recommend a younger cadre for a post 
carrying ministerial rank. Hu Jintao was selected from this list to 
become Party secretary of Guizhou, Wen Jiabao to become deputy head of 
the powerful Central Party Office, and so on. The same cadre 
rejuvenation policy led Deng to order that someone younger than 50 be 
appointed to the Fourteenth Politburo Standing Committee in 1992. That 
choice fell upon Hu Jintao, so that his current accession to the 
position of General Secretary marks the orderly working out of the same 
process set in motion 20 years earlier.
    Five of the nine members of today's new PBSC were members or 
alternate members of the Central Committee in 1982. This indicates the 
deliberateness and regularity of the succession process. The need to 
select PBSC members from the relatively small pool of candidates who 
survived the twenty-year selection process constrained the way in which 
factionalism worked between 2000 and 2002. Jiang Zemin could make the 
case for Zeng Qinghong or Zeng Peiyan, Li Peng for Luo Gan, and Zhu 
Rongji for Wen Jiabao, only on the basis of each person's excellent 
performance over the course of two decades in technically and 
administratively challenging jobs, and not because of symbolic 
importance (for example, Mao's promotion of Chen Yonggui) or 
ideological correctness (Mao's promotion of the so-called Gang of 
Four).
    A norm of staff neutrality has become to some degree accepted at 
high levels within the Party Center, the State Council, and the Central 
Military Commission, so that the careers of rising stars have been 
relatively unperturbed by factional turmoil at the top. When Zhao 
Ziyang was purged in 1989, a few of his associates were 
immediately purged, but most of them were gradually moved into 
secondary bureaucratic posts over the course of the next couple of 
years. Some even continued to advance in their careers. Wen Jiabao, for 
example, served eight consecutive years as director of the powerful 
Party Central Office under three different general secretaries (Hu 
Yaobang, Zhao Ziyang, and Jiang Zemin). In contrast to the old spoils-
like practices in which a leader's purge led quickly to the rooting-out 
of his followers several levels down the political system, the new 
system limits the damage that factional strife does to the orderly 
careers of the rising generation of leaders.
    The product of this less factionalized, more regularized process is 
a competent leadership group that has high morale; that is politically 
balanced in representing different factions in the Party; that lacks 
one or two dominant figures, and is thus structurally constrained to 
make decisions collectively; and that is probably as collegial as any 
political leadership can be, because all the members came to the top 
through the same process, which they all view as having been broadly 
fair.<SUP>7</SUP>
    Whether this event sets the template for future successions remains 
uncertain, but the chances of that happening are increased insofar as 
the current succession entrenches--as it does--rules that have elite 
support (for example, the age-70 rule), historical depth (the rules 
governing the meritocratic promotion system), and structural 
reinforcement from the informal political structure of balanced 
factional power.

            INSTITUTIONAL DIFFERENTIATION WITHIN THE REGIME

    At the high point of political reform in 1987, Zhao Ziyang proposed 
the ``separation of Party and government'' and the ``separation of 
Party and enterprise.'' With Zhao's fall from power in 1989, these 
ideas were abandoned. Yet in the intervening 14 years, much of what he 
proposed has happened by evolution, as the separation of 
responsibilities and spheres of authority--which Max Weber saw as 
definitive characteristics of the modern state--has gradually 
increased. What belongs to a given agency to handle is usually handled 
by that agency not only without interference, but with a growing sense 
that interference would be illegitimate.
    One group of specialists, located in the Party Center, manages 
ideology, mobilization, and propaganda (in the outgoing regime, it 
included people like Jiang Zemin, Li Ruihuan, Hu Jintao, and Zeng 
Qinghong). Another group, located in the State Council, makes economic 
policy (including Premier Zhu Rongji, vice-premiers Wen Jiabao and Wu 
Bangguo, most State Council members, and most provincial governors and 
Party secretaries). Provincial-level governors and Party secretaries 
have an increasingly wide scope to set local policy in such areas as 
education, health, welfare, the environment, foreign investment, and 
economic development. Many large state enterprises have now been 
removed from state ownership or placed under joint state-private 
ownership. Enterprise-management decisions are made on predominantly 
economic rather than political bases. State Council members, 
provincial-level officials, and enterprise managers are selected 
increasingly for their policy-relevant expertise. And economic policy 
makers at all levels suffer less and less frequently from intervention 
by the ideology-and-mobilization specialists.
    The NPC has become progressively more autonomous, initiating 
legislation and actively reviewing and altering the proposals for 
legislation presented to it.<SUP>8</SUP> The police and courts remain 
highly politicized, but in the case of the courts, at least, a norm of 
judicial independence has been declared (in the 1994 Judges' Law and 
elsewhere) and judges are applying it more often in economic and 
criminal cases that are not sensitive enough to draw interference from 
Party authorities.
    The military is still a ``Party army,'' but it has also become 
smaller, more technically competent, and more professional. The 
officers being promoted to the CMC in the current succession are, as a 
group, distinguished more for their professional accomplishments and 
less for their political loyalties than was the case with previous CMC 
cohorts.<SUP>9</SUP> Calls have come, apparently from the younger 
members of the officer corps, to make the army a nonpartisan national 
force without the obligation to defend a particular ruling party. And 
although the incoming leader, Hu Jintao, has rejected these calls, the 
fact that they were voiced at all is a sign of a growing professional 
ethos within military ranks.<SUP>10</SUP>
    All Chinese media are owned (at least formally, and for the most 
part actually) by Party and state agencies. But the media have become 
more commercialized and therefore less politicized. A handful of 
important outlets remain under variously direct control by the Party's 
propaganda department--for instance, People's Daily, the New China News 
Agency, China Central Television, provincial-level Party newspapers, 
the army newspaper, and so on. But to some extent, these media--and 
even more so, other newspapers, magazines, and radio or television 
stations around the country--fight for market share by covering movie 
and pop stars, sports, and scandals. In the political domain, they 
often push the envelope of what the regime considers off-limits by 
investigating stories about local corruption and abuses of power.
    To be sure, the Chinese regime is still a party-state, in which the 
Party penetrates all other institutions and makes policy for all realms 
of action. And it is still a centralized, unitary system in which power 
at lower levels derives from grants by the center. But neither the top 
leader nor the central Party organs interfere as much in the work of 
other agencies as was the case under Mao and (less so) Deng. 
Ideological considerations have only marginal, if any, influence on 
most policy decisions. And staff members are promoted increasingly on 
the basis of their professional expertise in a relevant area.
    All of this is partly to say, as has often been said before, that 
the regime is pragmatic. But behind the attitude of pragmatism lie 
increased institutional complexity, autonomy, and coherence--attributes 
that according to Huntington's theory should equip the regime to adapt 
more successfully to the challenges it faces.

              INPUT INSTITUTIONS AND POLITICAL LEGITIMACY

    One of the puzzles of the post-Tiananmen period has been the 
regime's apparent ability to rehabilitate its legitimacy (defined as 
the public's belief that the regime is lawful and should be obeyed) 
from the low point of 1989, when vast, nationwide prodemocracy 
demonstrations revealed the disaffection of a large segment of the 
urban population.
    General theories of authoritarian regimes, along with empirical 
impressions of the current situation in China, might lead one to expect 
that the regime would now be decidedly low on legitimacy: Although 
authoritarian regimes often enjoy high legitimacy when they come to 
power, that legitimacy usually deteriorates for want of democratic 
procedures to cultivate ongoing consent. In the case of contemporary 
China, the regime's ideology is bankrupt. The transition from a 
socialist to a quasimarket economy has created a great deal of social 
unrest. And the regime relies heavily on coercion to repress political 
and religious dissent.
    Direct evidence about attitudes, however, shows the contrary. In a 
1993 nationwide random-sample survey conducted by Tianjian Shi, 94. One 
percent of respondents agreed or strongly agreed with the statement 
that, ``We should trust and obey the government, for in the last 
analysis it serves our interests.'' A 2002 survey by Shi found high 
percentages of respondents who answered similarly regarding both the 
central and local governments.<SUP>11</SUP> There is much other 
evidence from both quantitative and qualitative studies to suggest that 
expressions of dissatisfaction, including widely reported worker and 
peasant demonstrations, are usually directed at lower-level 
authorities, while the regime as a whole continues to enjoy high levels 
of acceptance.
    A number of explanations can be offered for this pattern. Among 
them:

<bullet> Most people's living standards have risen during two decades 
    of economic growth.
<bullet> The Party has coopted elites by offering Party membership to 
    able persons from all walks of life and by granting the informal 
    protection of property rights to private entrepreneurs. This new 
    direction in Party policy has been given ideological grounding in 
    Jiang Zemin's theory of the ``Three Represents,'' which says that 
    the Party should represent advanced productive forces, advanced 
    culture, and the basic interests of all the Chinese working 
    people--that is, that it should stand for the middle classes as 
    much as or more than the workers and peasants.
<bullet> The Chinese display relatively high interpersonal trust, an 
    attitude that precedes and fosters regime legitimacy.<SUP>12</SUP>
<bullet> The Chinese population favors stability and fears political 
    disorder. By pointing to the example of postcommunist chaos in 
    Russia, the CCP has persuaded most Chinese, including 
    intellectuals--from whom criticism might be particularly expected--
    that political reform is dangerous to their welfare.
<bullet> Thanks to the success of political repression, there is no 
    organized alternative to the regime.
<bullet> Coercive repression--in 1989 and after--may itself have 
    generated legitimacy by persuading the public that the regime's 
    grip on power is unshakeable. Effective repression may generate 
    only resigned obedience at first, but to maintain cognitive 
    consonance, citizens who have no choice but to obey a regime may 
    come to evaluate its performance and responsiveness (themselves 
    components of legitimacy) relatively highly.<SUP>13</SUP> In 
    seeking psychological coherence, citizens may 
    convince themselves that their acceptance of the regime is 
    voluntary--precisely because of, not despite, the fact that they 
    have no alternative.

    All these explanations may have value. Here, though, I would like 
to develop another explanation, more directly related to this essay's 
theme of institutionalization: The regime has developed a series of 
input institutions (that is, institutions that people can use to 
apprise the state of their concerns) that allow Chinese to believe that 
they have some influence on policy decisions and personnel choices at 
the local level.
    The most thorough account of these institutions is Tianjian Shi's 
Political Participation in Beijing, which, although researched before 
1989, describes institutions that are still in place. According to Shi, 
Chinese participate at the local and work-unit levels in a variety of 
ways. These include voting, assisting candidates in local-level 
elections, and lobbying unit leaders. Participation is frequent, and 
activism is correlated with a sense of political efficacy (defined as 
an individual's belief that he or she is capable of having some effect 
on the political system). Shi's argument is supported by the work of 
Melanie Manion, who has shown that in localities with competitive 
village elections, leaders' policy positions are closer to those of 
their constituents than in villages with noncompetitive 
voting.<SUP>14</SUP>
    In addition to the institutions discussed by Shi and Manion, there 
are at least four other sets of input institutions that may help to 
create regime legitimacy at the mass level:

<bullet> The Administrative Litigation Act of 1989 allows citizens to 
    sue government agencies for alleged violations of government 
    policy. According to Minxin Pei, the number of suits stood in 1999 
    at 98,600. The success rate (determined by court victories plus 
    favorable settlements) has ranged from 27 percent to around 40 
    percent. In at least one province, government financial support is 
    now offered through a legal aid program to enable poor citizens to 
    take advantage of the program.<SUP>15</SUP>
<bullet> Party and government agencies maintain offices for citizen 
    complaints--letters-and-visits departments (xinfangju)--which can 
    be delivered in person or by letter. Little research has been done 
    on this process, but the offices are common and their ability to 
    deal with individual citizen complaints may be considerable.
<bullet> As people's congresses at all levels have grown more 
    independent--along with people's political consultative 
    conferences, United Front structures that meet at each level just 
    prior to the meeting of the people's congress--they have become an 
    increasingly important channel by which citizen complaints may be 
    aired through representatives.
<bullet> As the mass media have become more independent and market 
    driven, so too have they increasingly positioned themselves as 
    tribunes of the people, exposing complaints against wrong-doing by 
    local-level officials.

    These channels of demand- and complaint-making have two common 
features. One is that they encourage individual rather than group-based 
inputs, the latter of which are viewed as threatening by the regime. 
The other is that they focus complaints against specific local-level 
agencies or officials, diffusing possible aggression against the 
Chinese party-state generally. Accordingly, they enable citizens to 
pursue grievances without creating the potential to threaten the regime 
as a whole.

                      AN AUTHORITARIAN TRANSITION?

    Despite the institutionalization of orderly succession processes, 
meritocratic promotions, bureaucratic differentiation, and channels of 
mass participation and appeal, the regime still faces massive 
challenges to its survival. This essay does not attempt to predict 
whether the regime will surmount them. What we can say on available 
evidence is that the regime is not supine, weak, or bereft of policy 
options. In contrast with the Soviet and Eastern European ruling groups 
in the late 1980s and early 1990s, the new Chinese leaders do not feel 
that they are at the end of history. The policy-statement excerpts 
contained in their investigation reports show that these leaders think 
they can solve China's problems.<SUP>16</SUP> They intend to fight 
corruption; reform the state-owned enterprises; ameliorate the lot of 
the peasants; improve the environment; comply with World Trade 
Organization rules while using transitional privileges to ease China's 
entry into full compliance; suppress political opposition; meet the 
challenge of U.S. containment; and, above all, stay in power and direct 
China's modernization. The argument that democratization, freedom, and 
human rights would lead to a truer kind of stability--as convincing as 
it may be to the democrats of the world--holds no appeal for these men.
    The theoretical implications of China's authoritarian resilience 
are complex. For the last half-century, scholars have debated whether 
totalitarian regimes can adapt to modernity. The implications of the 
Chinese case for this discussion are two: First, in order to adapt and 
survive, the regime has had to do many of the things predicted by 
Talcott Parsons and those who elaborated his theory: The regime has had 
to (1) abandon utopian ideology and charismatic styles of leadership; 
(2) empower a technocratic elite; (3) introduce bureaucratic 
regularization, complexity, and specialization; and (4) reduce control 
over private speech and action. Second, contrary to the Parsonian 
prediction, these adaptations have not led to regime change. In Richard 
Lowenthal's terms, the regime has moved ``from utopia to development.'' 
<SUP>17</SUP> But the Party has been able to do all these things 
without triggering a transition to democracy.
    Although such a transition might still lie somewhere in the future, 
the experience of the past two decades suggests that it is not 
inevitable. Under conditions that elsewhere have led to democratic 
transition, China has made a transition instead from totalitarianism to 
a classic authoritarian regime, and one that appears increasingly 
stable.
    Of course, neither society-centered nor actor-centered theories of 
democratic transition predict any particular outcome to be inevitable 
in any particular time frame. The Chinese case may, accordingly, merely 
reinforce the lesson that the outcome depends on politicians and their 
will to power. Alternatively, it may end up reminding us that 
democratic transition can take a long time. But it may also suggest a 
more disturbing possibility: that authoritarianism is a viable regime 
form even under conditions of advanced modernization and integration 
with the global economy.

                                 NOTES

    <SUP>1</SUP> As an example, see the multi-author symposium on 
Chinese democracy in Journal of Democracy 9 (January 1998).
    <SUP>2</SUP> In other words, to adapt a concept from democratic 
consolidation theory, the CCP has once again made itself the only game 
in town and is in the process of carrying out a successful transfer of 
power.
    <SUP>3</SUP> Samuel P. Huntington, Political Order in Changing 
Societies (New Haven: Yale University Press, 1968), 12-24.
    <SUP>4</SUP> The factual base for this discussion is contained in 
Andrew J. Nathan and Bruce Gilley, China's New Rulers: The Secret Files 
(New York: New York Review Books, 2002), and is summarized in two 
articles in the New York Review of Books, 26 September and 10 October 
2002. These publications are in turn based on Zong Hairen, Disidai (The 
Fourth Generation) (Carle Place, N.Y.: Mirror Books, 2002). Zong 
Hairen's account of the new generation of Chinese leaders is based on 
material contained in internal investigation reports on candidates for 
the new Politburo compiled by the Chinese Communist Party's 
Organization Department.
    <SUP>5</SUP> The Tiananmen Papers: The Chinese Leadership's 
Decision to Use Force Against Their Own People--In Their Own Words, 
Zhang Liang, comp., Andrew J. Nathan and Perry Link, eds. (New York: 
PublicAffairs Books, 2001), 102, n. 1, and passim.
    <SUP>6</SUP> Zong Hairen, Zhu Rongji zai 1999 (Zhu Rongji in 1999) 
(Carle Place, N.Y.: Mingjing Chubanshe, 2001); English translation 
edited by Andrew J. Nathan in Chinese Law and Government (January-
February and March-April 2002).
    <SUP>7</SUP> Like any meritocratic process, of course, this one had 
elements of contingency. Hu Jintao's career is a good example, in 
particular his 1992 selection from among four candidates as the 
representative of the Fourth Generation to join the PBSC.
    <SUP>8</SUP> Michael Dowdle, ``The Constitutional Development and 
Operations of the National People's Congress,'' Columbia Journal of 
Asian Law 12 (Spring 1997): 1-125.
    <SUP>9</SUP> Disidai, ch. 11.
    <SUP>10</SUP> Disidai, ch. 1.
    <SUP>11</SUP> The 1993 survey was conducted for the project on 
``Political Culture and Political Participation in Mainland China, 
Taiwan, and Hong Kong.'' The 2002 survey was conducted for the project 
on ``East Asia Barometer: Comparative Survey of Democratization and 
Value Changes.'' Data courtesy of Tianjian Shi.
    <SUP>12</SUP> Ronald Inglehart, Modernization and 
Postmodernization: Cultural, Economic, and Political Change in 43 
Societies (Princeton: Princeton University Press, 1997), 173, n. 2. 
Also Tianjian Shi, ``Cultural Impacts on Political Trust: A Comparison 
of Mainland China and Taiwan,'' Comparative Politics 33 (July 2001): 
401-19.
    <SUP>13</SUP> On components of legitimacy, see M. Stephen 
Weatherford, ``Measuring Political Legitimacy,'' American Political 
Science Review 86 (March 1992): 149-66. The relationship I am proposing 
between successful coercion and legitimacy is hypothetical; so far as I 
know it has not been empirically established.
    <SUP>14</SUP> Tianjian Shi, Political Participation in Beijing 
(Cambridge: Harvard University Press, 1997); Melanie Manion, ``The 
Electoral Connection in the Chinese Countryside,'' American Political 
Science Review 90 (December 1996): 736-48.
    <SUP>15</SUP> Minxin Pei, ``Citizens v. Mandarins: Administrative 
Litigation in China,'' China Quarterly (December 1997): 832-62, and 
personal communication. On legal aid, see Disidai, ch. 7; the province 
is Guangdong.
    <SUP>16</SUP> See Andrew J. Nathan and Bruce Gilley, New Rulers, 
chs. 7, 8.
    <SUP>17</SUP> Talcott Parsons, The Social System (New York: Free 
Press, 1951), 525-35; Richard Lowenthal, ``Development vs. Utopia in 
Communist Policy,'' in Chalmers Johnson, ed., Change in Communist 
Systems (Stanford: Stanford University Press, 1970), 33116.

                                 <all>

</pre></body></html>
